<html>
<title> - DARFUR AND THE OLYMPICS: A CALL FOR INTERNATIONAL ACTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
        DARFUR AND THE OLYMPICS: A CALL FOR INTERNATIONAL ACTION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2007

                               __________

                           Serial No. 110-51

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
42-325 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 7, 2007.....................................     1
Statement of:
    Anderson, Nick, co-founder of Dollars for Darfur; and Ana 
      Slavin, co-founder of Dollars for Darfur...................    14
        Anderson, Nick...........................................    14
        Slavin, Ana..............................................    21
    Hari, Daoud Ibrahim, Darfuri refugee and interpreter to Nick 
      Kristof and other journalists; Joey Cheek, American Olympic 
      Gold Medalist speedskater; Tegla Loroupe, Kenyan Olympic 
      distance runner, World record holder and United Nations 
      Ambassador of Sport; John Prendergast, senior advisor to 
      the International Crisis Group and co-founder of the Enough 
      Campaign; Ambassador (Ret.) Lawrence G. Rossin, senior 
      international coordinator, Save Darfur Coalition; and Jill 
      Savitt, director of the Olympic Dream for Darfur Campaign..    26
        Cheek, Joey..............................................    33
        Hari, Daoud Ibrahim......................................    26
        Loroupe, Tegla...........................................    39
        Prendergast, John........................................    45
        Rossin, Lawrence G.......................................    57
        Savitt, Jill.............................................    66
Letters, statements, etc., submitted for the record by:
    Anderson, Nick, co-founder of Dollars for Darfur, prepared 
      statement of...............................................    16
    Cheek, Joey, American Olympic Gold Medalist speedskater, 
      prepared statement of......................................    36
    Hari, Daoud Ibrahim, Darfuri refugee and interpreter to Nick 
      Kristof and other journalists, prepared statement of.......    28
    Loroupe, Tegla, Kenyan Olympic distance runner, World record 
      holder and United Nations Ambassador of Sport, prepared 
      statement of...............................................    42
    Prendergast, John, senior advisor to the International Crisis 
      Group and co-founder of the Enough Campaign, prepared 
      statement of...............................................    49
    Rossin, Ambassador (Ret.) Lawrence G., senior international 
      coordinator, Save Darfur Coalition, prepared statement of..    61
    Savitt, Jill, director of the Olympic Dream for Darfur 
      Campaign, prepared statement of............................    68
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    11
    Slavin, Ana, co-founder of Dollars for Darfur, prepared 
      statement of...............................................    23
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     5


        DARFUR AND THE OLYMPICS: A CALL FOR INTERNATIONAL ACTION

                              ----------                              


                         THURSDAY, JUNE 7, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2154, Rayburn House Office Building, Hon. John Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Higgins, Welch, 
Shays, and Platts.
    Staff present: Leneal Scott, information systems manager; 
Dave Turk, staff director; Andrew Su and Andy Wright, 
professional staff members; Davis Hake, clerk; Larry Halloran, 
minority deputy staff director; A. Brooke Bennett and John 
Callender, minority counsels; Nick Palarino, minority senior 
investigator and policy advisor; Patrick Lyden, minority 
parliamentarian and member services coordinator; and Brian 
McNicoll, minority communications director.
    [Videotape Presentation.]
    Mr. Tierney. The full clip can be found at 
www.dhsthepromise.com.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, that is so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record. Without objection, so ordered.
    I ask unanimous consent that the following written 
statements be placed on the record: Professor Eric Reeves of 
Smith College--he is the professor and author of the 
sudanreeves.org Web site and Sudan Advisor to the Olympic Dream 
for Darfur Campaign; a statement by David Muzurski of the 
Director of the Horn of Africa Project with the International 
Crisis Group; and Ann Vatalios with the U.S. Commission on 
International Religious Freedom.
    I want to thank everybody who is participating in this 
morning's hearing, and our witnesses, in particular. Some of 
the quotes that were just on there about the need to step up 
and do something is certainly encompassed by what our students 
and the other witnesses here have done today.
    The Olympics has always transcended sport. It has always 
been about more than gold medals and world records and 
individual athletic achievements.
    The Olympics goes beyond the compelling stories of the 
athletes or their families or their loved ones. It is much more 
than an accumulation of all the athletes' dedication, countless 
hours of work, and limitless devotion to perfection.
    The Olympics is that rarest of institutions in our modern 
age in which all the nations of the world put aside their 
differences and come together in a peaceful pursuit. It is 
inspirational, a call for what the world could be and not about 
the individual and inevitable faults.
    The Olympics is a call to our better natures, a symbol of 
what we can achieve if all of us, all the nations and the 
peoples of the world, come together.
    The ancient Greeks had a tradition of the Olympic Truce, or 
Ekecheieria, during which wars and battles would cease and all 
athletes, supporters, pilgrims, and artists would travel freely 
and unharmed to and from the games. The Olympic Truce has 
carried through to the modern day and has been ratified 
repeatedly by the United Nations.
    But the Olympic spirit should go beyond a mere temporary 
cessation of hostilities. In 2000, North and South Koreans 
entered Sydney's Olympic stadium under one flag. Just before 
the 2002 Olympics, the president of the International Olympic 
Committee, Dr. Jacques Rogge, publicly hoped that, ``this 
peaceful gathering of all Olympic athletes in Salt Lake City 
will inspire peace in the world.''
    For the upcoming 2008 Olympics in Beijing, China, the host 
country chose the theme: One World, One Dream.
    We haven't always lived up to the Olympic ideal, of course, 
but that just underscores the importance of redoubling our 
efforts.
    The hearing that we are holding today asks the simple, yet 
fundamentally important, question: shouldn't the upcoming 
Olympic games in Beijing serve as the catalyst to finally put 
an end to the horrific and unfortunately ongoing tragedy in 
Darfur?
    The images of the genocide in Sudan are forever burned into 
our collective consciousness: 400,000 people dead; kids killed 
and maimed in front of their mothers; mothers raped and beaten 
in front of their kids; entire villages burned to the ground; 
atrocities and destruction on both a wide scale and on a very 
personal scale; 2.5 million people uprooted from their lives, 
their livelihoods, and their homes. We will hear from one of 
those individuals today.
    The tragedy of violence continues. The Boston Globe 
recently called it ``the unending agony of Darfur.''
    Also, as we meet here today, scores and scores of refugees 
are living in camps, still fearing for their lives, and 
dependent on aid for their very survival--aid and workers 
threatened today by the Sudanese government.
    For Darfuris, who still today fear for their lives and 
their children's future, the glorious theme of the 2008 Summer 
Olympics, ``One World, One Dream,'' stands as nothing but an 
empty promise.
    While the way forward in Darfur is complicated and will 
take a sustained effort, one thing is crystal clear: expert 
after expert and report after report all stress the importance 
of a united world pressuring the Sudanese government, in a 
coordinated manner, to finally allow full deployment of the 
hybrid African Union/U.N. forces in Darfur and to ensure that 
humanitarian workers can go about their business without fear 
for their lives.
    Sustained international pressure is also key in bringing 
all parties of the Darfur conflict together to craft a 
comprehensive and sustainable peace agreement.
    Far too often, Sudanese President Omar al-Bashir has played 
one country off another, whether in failing to disarm the 
janjaweed or in blocking deployment of the 20,000 United 
Nations peacekeepers.
    The international community's lack of coordination and 
unity have allowed these atrocities to continue for far too 
long. That is why the International Crisis Group in a recent 
report stressed that, ``international efforts need to be 
unified,'' and that it is vital to ``build international 
consensus on a new political strategy, particularly with China 
and the U.S., in order to acquire the necessary leverage over 
the parties to the conflict.''
    And increasing focus has been placed on the host country of 
the 2008 Beijing Games as the linchpin in ending the atrocities 
in Darfur. Foreign Affairs Committee Chairman Tom Lantos and 
Majority Leader Steny Hoyer sent a letter signed by 108 Members 
of the House of Representatives to Chinese President Hu Jintao 
on just this subject. A remarkable 95 Senators joined a similar 
letter in that other body. And just this week the House of 
Representatives voted overwhelmingly on a resolution by 
Congresswoman Barbara Lee asking China to do more.
    The China/Sudan connection is made for good reason: China 
is Sudan's top trading partner and one of its top weapons 
providers. Over two-thirds of Sudanese oil goes to China, and 
the Chinese National Petroleum Company has recently built a 
900-mile pipeline in Sudan. China has canceled $100 million of 
Sudanese debt and has even offered a nearly $20 million 
interest-free loan for the Sudanese government to build a new 
Presidential Palace. If anyone in the world community has 
leverage on the Sudanese government, it is China, and what 
better country to help lead the effort to end the tragedy in 
Darfur than the host for the 2008 Olympics?
    While China has recently made some initial steps to be 
helpful, I don't know of anyone who thinks that they couldn't 
do more. And this is not a question of one country infringing 
upon the sovereignty of another; it is a question of being a 
responsible stakeholder in the world community and living up to 
the Olympic ideals as its temporary host.
    But it is not just China that needs to step up to the 
plate. The United States could do more, especially in helping 
to lead the multilateral effort.
    Former Secretary of State Powell courageously brought 
attention to Darfur by calling what has happened there 
genocide, and President Bush recently implemented some 
additional unilateral economic sanctions. But unilateral 
actions can only go so far; success in Darfur now rests on the 
hard and sustained work of forging coordinated international 
pressure on the Sudanese government.
    China could and should be doing more. The United States 
could and should be doing more. Russia could and should be 
doing more. The Arab League and the European Union could and 
should be doing more.
    The Darfur tragedy has continued for more than 4 years. And 
the young people of our world are saying that enough is enough. 
Our young people are stepping up and playing the role of 
humanity's conscience.
    My wife and I recently attended a community presentation by 
a young constituent, Kimberly Pomerleau. Kim is a 2007 graduate 
from Reading High School and had the courage and conviction to 
speak out to people twice or three times her age and to say 
enough is enough.
    On our first panel today we will hear from the two 
Massachusetts founders of the ``Dollars for Darfur'' high 
school challenge; young adults whose initiative and creativity 
raised more than $306,000, and increasing still, to help the 
people of Darfur.
    When I visit high schools in my District, I hear again and 
again from students that enough is enough, that the horrible 
atrocities in Darfur simply cannot and should not happen in 
this day and age, not on their watch.
    I have right here in my hand letters from over a dozen 
students in just one school in my District, Lynnfield High 
School, on the issue of Darfur. These students and their 
terrific teacher, Kacy Soderquist, are inspirations.
    The young people of the world are loudly and vigorously 
pointing the way, and it is past time for the rest of the world 
to follow.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.001
    
    [GRAPHIC] [TIFF OMITTED] T2325.002
    
    [GRAPHIC] [TIFF OMITTED] T2325.003
    
    [GRAPHIC] [TIFF OMITTED] T2325.004
    
    Mr. Tierney. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman, for holding this 
meeting. Thank you for your very important statement.
    We are meeting today to learn how we can bring an end to 
one of the deadliest conflicts and worst humanitarian crises of 
this century and last, the ongoing genocide in Darfur.
    After the Holocaust, and again after the 1994 genocide in 
Rwanda, the world community collectively agreed never again. 
Never again would it allow such crimes against humanity to 
occur. But it is happening again.
    The security, human rights, and humanitarian crisis in 
Darfur has continued to deteriorate, even after the signing of 
a peace agreement in May 2006. While I believe the genocide is 
finally getting the attention it deserves, the bottom line is 
the world community is not doing anywhere enough to help 
protect innocent lives.
    Today's hearing touches on what some would call a sensitive 
subject, which is the connection between China and its 
substantial investment and influence in Sudan and the Olympics, 
which China will host in 2008. We are all concerned China has 
slowed international efforts to resolve the conflict. As one of 
the Sudan's largest trading partners, China has hampered 
efforts to impose U.N. sanctions and deploy United Nations 
peacekeepers, continues to purchase Sudanese oil, and continues 
to provide aid to the very government that is complicit in the 
genocide in Darfur.
    I visited Darfur in August 2006, and cannot say enough 
about the critical work being done there by humanitarian aid 
organizations, including Save the Children, which is based in 
Connecticut. Whatever policies we adopt to end the killing in 
Darfur, it is critical we continue providing these 
organizations with the resources necessary to serve vulnerable 
populations, millions of vulnerable people.
    I am grateful that Daoud Hari, who was placed in a Sudanese 
prison, among other things, is joining us today to testify. I 
have had the opportunity to meet with Mr. Hari and I know his 
unique perspectives and recommendations come from a brave 
heart.
    I am also grateful that, in addition to Mr. Hari and policy 
experts, we will be hearing testimony today from athletes and 
from students. Congratulations to our students.
    [Applause.]
    Mr. Shays. We have heard from Connecticut. We are going to 
hear from Massachusetts. We could hear from every State from 
students.
    Several of the largest rallies held here in Washington have 
been organized with the assistance of student groups and faith-
based organizations, including, in particular, the Jewish and 
Armenian communities, who consider this issue from a very 
personal perspective.
    Speaking of students, we just watched a clip of the short 
documentary, The Promise, produced by students from Danbury 
High School in Danbury, CT. It is heartfelt and beautifully 
done. What strikes me about the documentary is that it tells 
the story of genocide so plainly. And really, how else do you 
tell such a story?
    The Promise includes the quote from Edmond Burke, ``All 
that is needed for the triumph of evil is that good men do 
nothing.'' This is not a cliche, but a warning and an 
admonition that we do whatever is required to end the genocide 
in Darfur.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.005
    
    [GRAPHIC] [TIFF OMITTED] T2325.006
    
    Mr. Tierney. Thank you, Mr. Shays.
    Mr. Welch, did you want to make a comment?
    Mr. Welch. You have covered it, Mr. Tierney and Mr. Shays, 
but I want to extend my congratulations to the students. In 
Vermont, the biggest event we had in the last election campaign 
was a rally that was organized by students in the Burlington 
area. We had several hundred people turn out.
    What is extraordinarily exciting from my eyes is to see 
young people getting involved politically, having a sense of 
their own power and a sense of their own responsibility to 
stand up and to speak out against injustice and to advocate for 
human rights for all.
    You are an inspiration to us. We are delighted at your 
work. We know that today is just one stop along the long road 
to try to end the genocide in Darfur.
    Thank you all very much for what you are doing.
    Mr. Tierney. Thank you, Mr. Welch.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Very briefly, I do want to hear from our witnesses, but I 
would be remiss if I didn't say thank you to all the witnesses 
and all of the students involved here today. Echoing what Mr. 
Tierney and Mr. Welch and Mr. Shays have said earlier, I see a 
lot of this in my District. There was a very active effort by 
the students at Milton High School in my District and also 
Medfield High School to try to support refugees and other 
victims of the genocide in Darfur, calling upon their 
Government, ourselves, to take action.
    I want to thank you all for the power of your example, 
because I think you speak for all the students and the younger 
generation in this country. It is great to see the 
responsibility assumed by young people. It gives me great hope 
that the next generation is very near the point of asserting 
itself on some of the issues, not only in this country but 
globally.
    I thank you for your efforts on behalf of all of the 
victims of the genocide in Darfur, and I congratulate you and 
join with you in trying to put more and more pressure, not only 
on our own Government, but internationally, to take full 
responsibility and to stop the genocide in Darfur.
    Thank you.
    Mr. Tierney. Thank you, Mr. Lynch.
    I would like to begin by introducing the witnesses on our 
first panel here this morning.
    We are honored to have the high school student co-founders 
of the Dollars for Darfur high school challenge. I want to 
point out that it just so happens that these student activists 
and leaders come from the great Commonwealth of Massachusetts. 
we have Nick Anderson with us and we have Ana Slavin with us, 
as well. Nick and Ana's national high school fund-raising 
competition on MySpace and Facebook Web sites generated over 
$306,000, and it is still working. Both of them are entering 
their senior year and are going to continue to do work on this 
issue so long as it is necessary.
    I want to welcome you both. I do have to tell you that it 
is the policy of this subcommittee to swear in all of its 
witnesses.
    [Witnesses sworn.]
    Mr. Tierney. The record will reflect that both answered in 
the affirmative.
    There is not going to be a question and answer on these 
particular witnesses, but we are more than grateful for your 
submitting of written testimony. We want to hear from your 
orally. You have the choice: you can either read to us your 
written testimony, or, knowing that is on the record, feel free 
to speak and tell us whatever you would like in the time.

STATEMENTS OF NICK ANDERSON, CO-FOUNDER OF DOLLARS FOR DARFUR; 
        AND ANA SLAVIN, CO-FOUNDER OF DOLLARS FOR DARFUR

                   STATEMENT OF NICK ANDERSON

    Mr. Anderson. Thank you, Mr. Chairman.
    I am Nick Anderson, co-founder of Dollars for Darfur, the 
national high school challenge to stop genocide in Darfur.
    In the United States, we are quite comfortable, a blessing 
in striking contrast to what is happening in the Darfur region 
of the Sudan. In comparison to my home State of Massachusetts, 
the number of people in Darfur who have died so far is 
equivalent to two-thirds the city of Boston, and the number 
left homeless is approximately one-quarter of the State's 
population. Facts like these compelled me to act.
    I present to you today a bit of the history of our project.
    In July 2006, co-founder Ana Slavin and I flew to 
Washington, DC, to meet with staff of the Save Darfur Coalition 
to encourage them to adopt Dollars for Darfur as one of their 
campaigns. We came with three main ideas: First, we intended to 
set up a national high school challenge that would both promote 
awareness of the situation in Darfur and raise money to be 
donated to Save Darfur and key relief organizations.
    Second, we proposed using social networking Web sites like 
Facebook and MySpace as a conduit to the Dollars for Darfur Web 
page. The Web page provided information to increase awareness 
of the atrocities occurring in Darfur and had a scoreboard page 
that managed the national fundraising challenge. It is a unique 
format for disseminating information, as Facebook and MySpace 
more frequently appear in the news for negative reasons; 
however, we knew that this awareness and fundraising strategy 
had the potential to reach a staggering number of high school 
students.
    Given the 22,000-plus high schools registered with Facebook 
alone, we determined that if each school raised just $50 the 
total would be over $1 million. So we set a goal of reaching 
1,000 schools and raising $200,000. In the end, we reached over 
2,500 high schools and raised over $306,000.
    The third idea that we presented to the Save Darfur 
Coalition was to offer a prize of some sort to the schools that 
raised the most funds. This suggestion became a reality, and 
sitting in this room today are representatives from some of the 
top 10 high school fundraisers nationwide. We also extend our 
gratitude to the Save Darfur Coalition for creating winner's 
even beyond our greatest expectations.
    Ana and I started Dollars for Darfur because we wanted to 
bring attention to the horrific crimes against humanity 
occurring in the Sudan. We sought to harness the good will that 
we know is ubiquitous in students of our generation and provide 
them with a format to effect change. We aspired to define our 
generation as one that acted and made a difference. It was 
always our goal to motivate fellow high school students, but 
somewhere along the line I realized that kids all across this 
country had deeply inspired me and opened my eyes to the power 
of individuals uniting to assert the indelible right to justice 
and liberty for all people of our global community.
    In towns and cities across the country, students joined 
Dollars for Darfur and inspired fellow students and community 
members to help stop the suffering in Darfur. Did you know that 
just $35 can provide two high-energy meals a day to 200 
children in the Sudan? Some students who participated in the 
challenge could scarcely afford the dollar they gave, while 
others easily gave hundreds. Yet, in his or her own way, each 
united around this important issue and sought to define our 
generation as one of strength and moral fortitude.
    [The prepared statement of Mr. Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.007
    
    [GRAPHIC] [TIFF OMITTED] T2325.008
    
    [GRAPHIC] [TIFF OMITTED] T2325.009
    
    [GRAPHIC] [TIFF OMITTED] T2325.010
    
    [GRAPHIC] [TIFF OMITTED] T2325.011
    
                    STATEMENT OF ANA SLAVIN

    Ms. Slavin. It is an honor for us to represent high school 
students from around the country and to be the voice to 
represent everyone who contributed to Dollars for Darfur at 
this important hearing.
    As Nick and I were developing Dollars for Darfur, there was 
one aspect that was of primary importance: the involvement of 
high school students. While some view high school students to 
be concerned with merely the trials and tribulations of teenage 
life, we saw something more. We saw a generation with the 
desire to make a difference.
    Our generation has struggled to find an identity. We are 
now recognized for our activism. Through this challenge we have 
proved that, given the right forum, we can have an impact.
    Nick and I started Dollars for Darfur by simply inviting 
our friends to join our Facebook and MySpace groups and 
encouraging them to spread the word. The numbers grew 
exponentially. In just 6 months, more than 7,000 high school 
students had joined our groups. Teens across the country have 
devised creative and effective ways of raising money and 
awareness for the cause.
    For example, at our school, Northfield Mount Hermon, Evan 
Abrams helped raise more than $15,000 and amassed a Dollars for 
Darfur committee consisting of over 50 students. Evan and his 
committee sold pizza to dorms around campus and organized a 
series of tournaments held in our student center.
    Ryan Saxe from Nevada organized a walk through the Vegas 
Strip, raising both funds and awareness.
    Christine Ocshner from Clearwater Central Catholic High 
School organized a school-wide dress-down day in which students 
could pay to dress in the clothing of their choice rather than 
their uniforms.
    Numerous schools like Deerfield Academy and Athens Academy 
held benefit concerts run and performed by students.
    Students from Wyoming High School even went door to door 
through their communities educating people about the situation 
and receiving donations.
    Through these efforts, Dollars for Darfur raised over 
$300,000 in just 6 months. The success of Dollars for Darfur 
demonstrates two things about our generation: we have extremely 
effective social networks that can be quickly mobilized, and we 
are passionate about ending the genocide in Darfur.
    I would like to read a few excerpts from the hundreds of 
messages that students posted on the Dollars for Darfur 
Facebook and MySpace sites, to give you a sense of some of the 
incredible enthusiasm we encountered throughout the Dollars for 
Darfur challenge.
    Claire Helfrich from the American School of the Hague 
writes: ``This is great, you guys. Here in the Netherlands, my 
school has done a Save Darfur campaign, as well. With all our 
efforts and money, we can really make a difference.''
    Kristin Girouard from Oakton High School wrote: ``Forget 
the imaginary lines that divide us from Africa. A suffering 
human being in Darfur is just as important as a U.S. citizen, 
and, furthermore, worthy of our attention, compassion, and 
aid.''
    Finally, Alex Mandel from Solebury School posted the 
following quotation from Nelson Mandela: ``Sometimes it falls 
upon a generation to be great. You can be that generation.''
    Our generation knows that we will inherit a world with 
staggering problems. We simply can't wait for others to change 
the world--we must start now. Taking action to stop the Darfur 
genocide is of great concern to high school students. According 
to a recent survey of 18 to 24 year olds conducted by Harvard 
University's Institute of Politics, the crisis in Darfur was 
identified as the most important foreign policy issue after 
stabilizing Iraq. Our generation will vote in 2008, and we will 
support candidates who work to promote human rights.
    We are grateful to the Save Darfur Coalition for supporting 
us and believing in this idea. We would also like to 
acknowledge the work that members of this subcommittee have 
done to help end the genocide in Darfur. We extend our sincere 
gratitude for convening this hearing and listening to our 
testimony.
    [The prepared statement of Ms. Slavin follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.012
    
    [GRAPHIC] [TIFF OMITTED] T2325.013
    
    Mr. Tierney. Thank you, Ana, and thank you, Nick.
    I think I can speak for all the members of the subcommittee 
that are here and those that have read your testimony and are 
not here yet that it is very impressive, and your generation 
has certainly found its identity. Human rights is about as good 
as you can do when you are looking for a cause.
    I understand that you have some representatives from some 
of the high schools that were leaders in raising the money. Can 
we ask all of them to stand so we can acknowledge their work, 
as well.
    [Applause.]
    Mr. Tierney. While you are up, would you please tell us 
your name and what school you attend and where.
    Mr. Abrams. I am Evan Abrams. I am from the Northfield 
Mount Hermon School.
    Mr. Tierney. Thank you.
    Ms. Ocshner. Christine Ocshner.
    Ms. Kearney. Pilar Kearney, William S. Hart High School.
    Ms. Crescente. Kelli Crescente, William S. Hart High 
School.
    Mr. Tierney. Thank you all very, very much. You are doing 
spectacular things.
    Nick and Ana, thank you very much for your testimony. I 
think what you are doing is tremendous, and you are just 
setting such a great example, and others are going to follow. 
We will look forward to watching you. This will not be the last 
we hear from either of you, I am sure.
    Ms. Slavin. Thank you.
    Mr. Tierney. Thank you very, very much.
    Mr. Anderson. Thank you.
    Mr. Tierney. We will take a moment while we change panels, 
if we can.
    The subcommittee will now receive testimony from the 
witnesses on the second panel.
    We have an outstanding panel here this morning, and we will 
discuss the Olympic spirit as a moral imperative to end the 
genocide in Darfur. With us to do that we have Daoud Ibrahim 
Hari. Daoud is a Darfuri refugee who has served as an 
interpreter for a number of reporters, including Nicolas 
Kristof of the New York Times and other journalists in Darfur. 
Mr. Hari was taken hostage and tortured on a trip into Darfur 
with the Chicago Tribune correspondent Paul Salopek, who 
suffered personally in respect to his family's situation.
    Daoud, we respect the fact that you are here and what you 
have gone through and your willingness to come forward and 
testify.
    We have Joey Cheek, American Olympic Gold Medalist 
speedskater. After Joey won the gold and silver in the 2006 
Olympics, he donated his $40,000 medal bonus to a group helping 
Darfuri refugees. Since then, he has been a tireless activist 
on this issue.
    Tegla Loroupe is a Kenyan Olympic distance runner. I 
declined her offer to train with her. She is a two-time New 
York City Marathon champion and a world record holder, United 
Nations Ambassador of Sport, and Champion of Peace and Justice 
in Sudan and elsewhere in Africa. Thank you for joining us.
    And we have Jill Savitt, the director of the Campaign to 
Bring Olympic Dream to Darfur.
    We have John Prendergast, senior advisor to the 
International Crisis Group and co-founder of the ENOUGH 
campaign.
    We have retired Ambassador Lawrence Rossin, senior 
international coordinator with the Save Darfur Coalition.
    I want to welcome all of you. I want to thank you. I want 
to ask you to be kind enough to stand, please, and raise your 
right hands as we do swear in all witnesses appearing before 
the committee.
    [Witnesses sworn.]
    Mr. Tierney. Let the record please reflect that all 
witnesses answered in the affirmative.
    Mr. Hari, if it is all right with you, we would like to 
start with your testimony.

     STATEMENTS OF DAOUD IBRAHIM HARI, DARFURI REFUGEE AND 
INTERPRETER TO NICK KRISTOF AND OTHER JOURNALISTS; JOEY CHEEK, 
  AMERICAN OLYMPIC GOLD MEDALIST SPEEDSKATER; TEGLA LOROUPE, 
KENYAN OLYMPIC DISTANCE RUNNER, WORLD RECORD HOLDER AND UNITED 
 NATIONS AMBASSADOR OF SPORT; JOHN PRENDERGAST, SENIOR ADVISOR 
TO THE INTERNATIONAL CRISIS GROUP AND CO-FOUNDER OF THE ENOUGH 
    CAMPAIGN; AMBASSADOR (RET.) LAWRENCE G. ROSSIN, SENIOR 
  INTERNATIONAL COORDINATOR, SAVE DARFUR COALITION; AND JILL 
   SAVITT, DIRECTOR OF THE OLYMPIC DREAM FOR DARFUR CAMPAIGN

                STATEMENT OF DAOUD IBRAHIM HARI

    Mr. Hari. Thank you, Mr. Chairman. Thank you for inviting 
me to speak. It is really hard for me to share my experience 
with you.
    It is sad, my written testimony. My name is Daoud Ibrahim 
Hari. I am a refugee from Darfur. I came to the United States 
in 2003 because of the genocide against my people.
    I was born in Musbat in north Darfur, where I learned my 
English in my school. I am survivor of the genocide.
    At the end of 2003 the government of the Sudan destroyed my 
village and killed my brother. It caused me to flee with the 
women and children to find safety in Chad. In Chad from 2004 to 
2006 I became interpreter for NGO and international journalists 
seeking to expose the genocide in Darfur and religious crisis 
in Central Africa Republic.
    I took this risk because I want to show the world the 
tragedies happening to my people. I even went back to Darfur 
with the journalists and some NGO six times to talk with the 
victims and hear the stories.
    I remember going with Nick Kristof of New York Times for 2 
years to talk to soldiers. He was wounded by the villagers. 
People asked that the government of Sudan had paid them $200 to 
come to destroy this village. If they succeed, they were paid 
$700. We saw and he taught me that the government of Sudan had 
to pay for genocide.
    I also remember seeing how they would clean the villages. 
In one case they dismembered the family bodies and put them in 
the village well to poison the water resources for the area.
    And also, when I went with the BBC, to Sudan and Chad, we 
witnessed 81 persons had been killed and dead bodies were 
destroyed. The village was burned down to the ground.
    I, myself, then became victim of the government of Sudan 
when they arrested, jailed, and tortured me with Paul Salopek 
of the Chicago Tribune on assignment with the National 
Geographic, and our drivers. I was sure that I would be killed. 
This was a miracle for me that the American politician Chris 
Shays, Barak Obama, and Governor Bill Richardson were able to 
secure our freedom after 25 days in jail. However, my people 
need more miracle from American and other world.
    Finally, to bring peace to my people and to stop the 
genocide I recommend that you pressure the government of China 
to not support the government of Sudan killing my people.
    Also, all the Darfuri refugees have need of help and 
resettlement in the United States. There are refugees in 
danger, including women and children. Sixty percent of the 
women are refugees who lost their husband. Thousands of 
children were held who lost their parents. We need the United 
States to provide special legislation for my people who are in 
constant risk.
    I thank America for saving my life and I will continue to 
share my story with the American policy. I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Hari follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.014
    
    [GRAPHIC] [TIFF OMITTED] T2325.015
    
    [GRAPHIC] [TIFF OMITTED] T2325.016
    
    [GRAPHIC] [TIFF OMITTED] T2325.017
    
    [GRAPHIC] [TIFF OMITTED] T2325.018
    
    Mr. Tierney. Thank you for your testimony, Mr. Hari.
    Mr. Cheek.

                    STATEMENT OF JOEY CHEEK

    Mr. Cheek. Thank you, Mr. Chairman, and thank you to all 
the Members and to all of the staff who have put together this 
hearing today. I think it is a timely issue and an important 
one, and I am very honored and humbled to be a part of a panel 
with as much experience and moral weight as this one does.
    It truly is the thrill of a lifetime to compete in Olympic 
games. I spent more than 17 years preparing and training and 
competing so that I could compete at the Salt Lake Olympics in 
2002 and then in the Turin Olympics in 2006 representing my 
country. I was a bronze medalist in 2002, and a gold and silver 
medalist in 2006 in Turin.
    Oftentimes, the American media really plays up the 
competitive aspect of the games. What really matters, we are 
led to believe, is who are the winners, who are the losers, 
what are the medal counts, and which nation stands on top. It 
is certainly the case that the Olympics is a competitive event, 
but in my opinion, having experienced two of them now, that is 
not the real majesty of the Olympics.
    I have a story that I would like to tell, and it 
illustrates, in my opinion, really what I think the true power 
of Olympic sport is, and ultimately what the Olympic ideal 
which we pay a lot of lip service to and oftentimes do not live 
up to. I think this story exemplifies.
    I am asked oftentimes what my favorite memory is, and it is 
outstanding to stand on the podium as a gold medalist with the 
national anthem playing and flag raising, but one of my 
favorite memories is the very first time I walked into an 
Olympic village. Within the village, very few people are ever 
accepted and there is no press, there is no family. It is just 
the athletes who have qualified. And you walk into this big 
hall, and the flags of all the nations that are competing are 
draped from the ceilings. You walk in and your eyes light up 
because this is the moment you have dreamt of since you were 
nine or ten or eleven years old. You look down and you see all 
the athletes from the world, and it is this great tapestry of 
colors, because every nation wears their colors on their back.
    At first your eyes are so wide and you are so struck by 
this experience of finally making it, it takes a little while 
for you to realize that, as you look up, you see athletes from 
Europe and from Asia, from Africa, from North America, from 
South America, and we all sit at the same tables. We sit 
together and we break bread and we eat and we laugh. 
Oftentimes, although when we compete on a field of play with 
all our hearts and souls out there and we compete with all that 
we have, the cameras never catch us when we return and we are 
able to laugh and share experiences and hug and talk about this 
shared reality that so few people on Earth will ever get to 
experience.
    I said in my written testimony that it is not uncommon to 
see Japanese and Chinese athletes sitting together and talking, 
or Europeans from nations that our grandfathers fought to the 
death and decimated an entire continent being best friends, 
being lifelong friends. There are actually quite a few Olympic 
marriages. You would be surprised.
    That story is never told about the Olympics, but to me that 
one is something that exemplifies what this Olympic ideal is 
all about.
    We talk about, when we speak of the Olympics, we speak 
about sport transcending mere competition. We talk about being 
able to use sport to promote the values of peace and common 
brotherhood and humanity, and oftentimes it is just kind of 
boilerplate. It is something that sounds nice. The only way it 
can be a true reality is if we take that flowery language and 
we choose to live it in our everyday lives.
    After the 2006 Olympics when I was gold and silver medalist 
I had a brief moment of media spotlight, and I thought of all 
the lessons that I had learned from sport, and I realized the 
most important one was that myself, an athlete from Europe, and 
athlete from China, an athlete from Africa, many of us have 
much more in common than we have different. In fact, I may have 
something more in common with a speedskater that grew up 
competing in China than I do with someone I may meet walking 
down the street.
    As we get ready in the next year-and-a-half for the 2008 
summer Olympics in Beijing, many people are going to say I 
don't see the connection between a sporting event and the 
genocide going on on the other side of the world. In fact, I 
believe one of the foreign ministers of China was just quoted 
in the Washington Post saying that there are many activists 
that are trying to link this and they will fail because 
politics and the Olympics don't match, they don't mix. I think, 
with all due respect, that is the exact opposite message. I 
think he is absolutely incorrect. The sole reason we have an 
Olympics is so that we can live up to the ideals that we 
profess.
    It has already been said, of course, the financial 
relationships between China and Sudan, but I think it is also 
important to point out that, by choosing to host an Olympics, 
China in particular looks to use this as its coronation on the 
world's stage. They are an enormously developing nation. They 
are going to be a world power, if they are not yet, very 
shortly. You don't get to host the Olympics, you don't get to 
host this great event with all of the glow and all of the good 
feelings that come along with it, without accepting the 
responsibility of what you are proclaiming.
    It is my intention, as we go through the next year-and-a-
half and prepare for this Olympics, to travel out into the 
world and begin to recruit athletes, not just from the United 
States, because I think that the United States has already done 
a reasonable job and I think we will continue to improve in 
terms of what we are working on to try and stop the genocide in 
Darfur, but to recruit athletes from all over the world, 
because it is not just nations that have to live up to the 
Olympic ideal; I think the athletes that are competing also 
have a responsibility.
    So I founded an organization entitled Where Will We Be, and 
over the next year-and-a-half I seek to bring other athletes, 
because, as the glow from the Turin Olympics fades and the star 
of the Beijing Olympics ascends, I think it is vital that new 
young hearts and new energy are brought into the fight.
    I hope that by the time the Beijing Olympics begin we don't 
have to have another testimony, another hearing about this. I 
hope that the nations of the world have lived up to this 
responsibility. I hope that the competing nations in the 
Olympics will live up to the ideals that they profess. But I 
believe that if they are not ready to make that decision, that 
the athletes of the world will have to take a leadership 
position in that respect.
    I appreciate your giving me the time, and I also thank you 
deeply for making this an issue and keeping this on the 
national and the world stage.
    [The prepared statement of Mr. Cheek follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.019
    
    [GRAPHIC] [TIFF OMITTED] T2325.020
    
    [GRAPHIC] [TIFF OMITTED] T2325.021
    
    Mr. Tierney. We appreciate your testimony. Thank you.
    Ms. Loroupe.

                   STATEMENT OF TEGLA LOROUPE

    Ms. Loroupe. Thank you, Mr. Chairman, athletes, and 
students. It is a great honor for me to be here today to 
represent South Africa as an Olympic athlete.
    My name is Tegla from the Tegla Loroupe Foundation. I am 
still active in sports. Don't turn down my offer. [Laughter.]
    I would like to share with you today about the spirit of 
Olympics, through sports. It has a powerful role to play in our 
lives.
    For the past 5 years, I asked my friends from Africa, 
Holland, and South Africa, and Uganda to have a race for peace. 
And they informed me that I come from a conflict place close to 
Uganda. I witness when people are dying. I used to run away 
from school. And when [inaudible] went to school in Sudan, I 
know what it means.
    In 2003 I came and asked [inaudible], said I would like to 
have a peace race in that [inaudible] and they refused. They 
say do not go there, because of the AK-47s. And I found a place 
called Angola, where the place where the Sudanese came and 
stayed, including the family of the director. I did not know 
what to do. And I asked again, the peace race will help people. 
And over the last 13 years I have been the best athlete in 
Kenya.
    There was no race being given in that region. In the night 
of that [inaudible] from Uganda, he called me, I never saw his 
eyes. He told me, listen, I am a great admirer of yours. We 
have been fighting for you, all people. You have been fighting 
to be one of the greatest athletes in Kenya. [inaudible] the 
reason I stand you down, [inaudible] but don't stop to have 
that peace race, because peace is the best thing for us. He did 
not know what it means to have peace [inaudible]. I was really 
shocked.
    The following day I went [inaudible] and I asked, I would 
like to have this race for women. All of the sudden I had like 
[inaudible] ten ministers surrounding me. And they told me, 
listen, Tegla, it is not only for women; it is for men. Let the 
race be for all people. I said I could not [inaudible] I don't 
have money.
    Some of the Sudanese who stayed in Nairobi, they came to me 
saying, listen, together with your government, we are going to 
help you go and train. Well, I went for training. I came back. 
I had peace race in [inaudible]. We were able to bring warriors 
and they returned their weapons and their [inaudible] for 
education.
    Today in Africa we have many conflicts. Some are caused by 
tension over scarce resources, some are caused by ethnic 
rivalries. Some are caused because of disputes of fair 
distribution of oil, diamonds or other sources of wealth. 
Today, conflict in Darfur, it has all, contains all the 
elements of these. The food crisis is a very painful issue for 
the people of the continent of Africa. And [inaudible] are the 
one.
    As we discuss about Darfur today, there are so many 
children, many boys and girls, many Olympians are losing their 
lives. Women and all the people are dying day by day. And so I 
tell you today to start to stand, it is not a time for pointing 
fingers. It is not a time for fearing one another. It is not a 
time for politicians to come in. We have to save our human 
beings. Women have power. It is time for us to stand up in 
physical areas. It is not a point whereby, people visit Darfur 
for half an hour and they fly away. It is only that [inaudible] 
that attracts the media. People in the countryside, they don't 
have televisions. I say, because I came from countryside, when 
people come to Nairobi and talk about the peace in Sudan, when 
people come to Nairobi I talk about the problem between the 
provinces of Uganda and Kenya. Those who are playing around 
there run. Those who are playing for [inaudible], they don't 
understand. If only somebody can come and sit down there and 
talk with the people, they will understand.
    Why we use sports today, because there is no politics, 
there is no difference, there is no diplomacy. You can believe. 
You can be placed and you can be moved. But when people come 
together to share, they feel, they can understand one another 
and with respect.
    We know that [inaudible] are supporting the government for 
Sudan, but if only the Africa Union can come in and stand firm. 
Because they are not [inaudible]. There are other people who 
will not play a lot. When we see a problem in Darfur, it is not 
only the Sudanese people who suffer. We all suffer, 
especially--I am a woman, and many of the women [inaudible] and 
children are dying. We invest so much, 9 months, and maybe 
more, another 5 years, and that kid will be a soldier. It 
breaks the hearts of the women.
    So it is time to tell the people in China doing the 
Olympics that we should not only stop a few days for the 
Olympics to continue for the Chinese to understand us. People 
are going to their country for one reason, peace. Peace is our 
dream. Sports is our dream for everybody that should see that 
they have peace [inaudible] that they build in Sudan should 
plant these [inaudible] things in the eyes of the children.
    In the eyes of the poor that cannot talk, today I want to 
ask [inaudible], you have to come forward and help. You are the 
voice of the voiceless, and these people are suffering. It is 
your duty. It is my duty. It is the duty of everybody in this 
House to stand firm and tell the old ones [inaudible]. You have 
to visit Sudan and tell the leaders of Sudan it is time, it is 
enough.
    The rich people, they don't stay there with their kids. 
They leave [inaudible]. They [inaudible]. I want to tell you 
one example. In 1999, I was running a marathon in Holland. All 
of a sudden, I saw my own community [inaudible] on CNN and I 
saw some people that I know that there was conflict there. I 
realized that, and when I go home my brother-in-law was killed 
because of conflicts. I really went home. When I came to 
Frankfort, I met with one of the [inaudible], and I know he was 
one of the people who fired the arms. He asked me where I came. 
We started quarreling in the airport. I say I am going home. He 
said that place, it is fire. And I say my father is still 
there. I know he is there. He is family and he will never leave 
the place. And he told me that, I'm going to Nairobi to see my 
family. I told him [inaudible] putting [inaudible] by the 
cameras. I told him, listen, I know that poor people are dying, 
but you people have coined the problem as dying, give them 
money to the poor fight themselves. That is what is happening 
today in Sudan.
    [Inaudible] when I came home, people were not staying 
there, except my family, and few of them. My father told me, 
listen, do you know how to use any weapon? I say, listen, my 
hands are already [inaudible]. And he told me [inaudible] 
something important, don't stay with us. Go to the training 
camp. I said, where? In the other side are my [inaudible]. 
There was 4 days I could not go. And then I said, why? He said 
in sports place, [inaudible] kill sports people. He is an older 
man who cannot understand what it means to me to play sports. 
Today, sports can bring people together.
    So, as I say, it is time for us. Let us use our resources. 
These are [inaudible] people, they are human people.
    And I want to ask the countries who have not signed 
agreements, the small arms treaty, please do so. I know it is 
our business, but I am telling you it is not only going to stay 
in Africa, it will come to us. There are some of our women, 
light the fire in the grass, the fire will blind, their eyes 
are blind. So it will come to us [inaudible] peace to this day 
the fire of hatred, so sign the treaty of small arms before it 
destroys the students, any [inaudible].
    It can reach people. You don't have peace because 
[inaudible] somebody is after you, so make what place you own 
and let us stand and be strong, all of us.
    Thank you very much.
    [The prepared statement of Ms. Loroupe follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.022
    
    [GRAPHIC] [TIFF OMITTED] T2325.023
    
    [GRAPHIC] [TIFF OMITTED] T2325.024
    
    Mr. Tierney. Thank you, Ms. Loroupe.
    Mr. Prendergast.

                 STATEMENT OF JOHN PRENDERGAST

    Mr. Prendergast. Thank you, Mr. Chairman. I used to be an 
athlete, so maybe you can train with me as preparation.
    There has been a lot of talk about Darfur. In fact, in my 
quarter century now of working in Africa and on African issues, 
I don't think there has ever been a wider gulf between rhetoric 
and action.
    Just this morning I saw come across the airwaves our 
President talking about Darfur, and he said, ``I am frustrated, 
but the international organizations can't move quickly enough. 
I don't know how long it is going to take for people to hear 
the call to save lives. I will be stressing, along with Tony 
Blair, the need for nations to take action. If the U.N. won't 
act, we need to take action ourselves, and I laid out a series 
of sanctions,'' etc.
    A crucial misperception I think has to be corrected if we 
are going to be effective in Darfur. The U.N. doesn't move by 
itself; it has to be moved by the brain inside the United 
Nations, which is the United Nations Security Council. The most 
powerful nation in the Security Council is the United States. 
The U.N. moves when the United States moves it.
    I worked in the last administration and spent a lot of time 
doing this stuff. It simply doesn't happen unless we move. So 
to displace responsibility to other nations or international 
organizations, which we are the dominant member, does a 
disservice, I think, to the cause.
    The United States needs to lead in the United Nations now 
if we are going to take action that is going to change the 
calculations of the regime in Khartoum and get the peace deal 
and the protection force that everyone agrees are the central 
objectives in Darfur. So the urgency now is multilateral 
action, is leading in the United Nations. The unilateral 
actions we have taken have been tapped out, they have been 
discounted by the regime many years ago. It is harder work to 
work multilaterally. We have a lot of other issues on the 
agenda, so let's understand and respect the fact that Iran and 
North Korea and Iraq and other issues are taking up our time 
and energy.
    But eggs are going to have to be broken and we are going to 
have to expend a little bit of our leverage or, as the 
President says, our moral and our political capital, if we are 
going to move this issue in the United Nations Security 
Council. And the fact is, the great news is that when we have 
done that in the past, including during this administration, 
when we have worked multilaterally we have actually made a 
difference in Sudan.
    There have been three cases in the 18 years this regime has 
been in power where the United States had led multilaterally 
and there has been a major change on the ground in Sudan.
    The first time was during the 1990's when Bin Laden lived 
in Sudan and support for terrorism was the order of the day 
with the Khartoum regime, U.S. led. Bin Laden was kicked out. 
The Al Qaeda infrastructure was dismantled, and we saw a real 
change.
    The second time, slavery--all of you have known and heard 
about the issue of slavery in Sudan. The U.S. led 
multilaterally and the regime capitulated, stopped arming the 
militias that were doing the slavery. It ended.
    The third time has been just in the last couple of years 
when the United States and the Bush administration led 
internationally, multilaterally, to get a peace deal between 
the north and the south that everyone said was impossible to 
reach.
    There is a track record here. We have just got to actually 
act.
    So what does it mean to act in this context? Well, of 
course, what we have now is 4 years in Darfur where there has 
been no real cost for committing genocide, no cost for 
obstructing the United Nations. Without a cost, this will 
continue. It would be irrational, frankly, for the government 
of Sudan to stop pursuing a military solution if there is no 
cost, multilateral cost. That isn't plan B, because plan B was 
largely unilateral.
    We have to move multilaterally, and I think there are five 
things we can do, five things the United States can take the 
lead on that would actually make a difference in Khartoum and 
change the calculation of the government of Sudan.
    First, we need U.S. leadership to get the kind of sanctions 
that we have imposed on the businesses in Sudan unilaterally, 
we need to multilateralize those. We have 160 Sudanese 
companies now on a list that we freeze their assets, we go 
after their business. We try to target their businesses. We 
need to multilateralize those through the United Nations' 
Security Council. That takes leadership.
    Second thing we can do, same approach, through the United 
Nations' Security Council take the idea of sanctioning the 
individuals who are most culpable and most responsible for 
genocide and crimes against humanity and multilateralize those 
through the Security Council.
    There are three people, and I want to name names, because 
there are three people who have been most responsible for the 
destruction of 400,000 lives in Sudan during the last 4 years, 
and there are three people who haven't yet shown up on our 
lists because we are protecting them because they are the ones 
that are giving us a lot of information in our counter-
terrorism cooperation. We are going to have to make a stand 
here and decide what matters most to us. The three people are 
the Assistant to the President, Nafie Ali Nafie; the Director 
of Intelligence, Salah Abdallah Gosh; and the Minister of 
Defense, Abdel Rahim Mohamed Hussein. Those are the three guys 
that we need to act. If we don't target the orchestrators, 
these sanctions are not going to bite.
    The third thing we can do, whether you agree or not with 
the International Criminal Court, whether or not we support the 
ICC, whether or not we sign the ICC Charter, we can quietly 
provide declassified intelligence to the ICC that can 
accelerate the indictment process. There is nothing that will 
get their attention quicker than if the United States quietly 
says to them, OK, we have given you 4 years. We have 
information that will lead directly to the prosecution of some 
of the senior members in this regime. We are going to turn it 
over in 30 days. You decide what you want to do. That is real 
leverage. We are not using it.
    The fourth thing we could do is to plan very transparently, 
start to plan for specific military operations that might make 
a difference on the ground if the situation deteriorates. That 
requires multilateral planning, and it can't just be a no-fly 
zone. Let me tell you right now, people keep talking about 
imposing a no-fly zone. It is the height of irresponsibility if 
we press forward with implementing a no-fly zone, which is the 
easiest thing in the world to send an airplane over and shoot 
an airplane on the tarmac that might or might not have been 
involved in an offensive operation. Well, if Khartoum believes 
that is all we have, that is all we are prepared to do, the 
first thing they are going to do is cutoff humanitarian 
assistance to 4 million people, and then it is on us. And if we 
haven't done the appropriate preparation for ground deployment, 
let's not go down the irresponsible road of inciting further 
action on the part of Khartoum.
    So what I am saying is: accelerated military planning 
multilaterally through NATO and the United Nations' Security 
Council that looks both at air and ground involvement in Darfur 
if the situation deteriorates. Just that credible transparent 
planning will give leverage to the negotiators for the peace 
and protection the people need in Darfur.
    Fifth and finally and the point of this hearing, we have an 
unbelievable golden opportunity that is being squandered with 
each passing 24 hours. There is a confluence of three unique 
factors internationally that I think could help end the war and 
bring peace to Darfur in the immediate sense.
    First, the U.S. Government has, in fact, turned. The worm 
has turned. The United States, through Plan B, even though it 
is inadequate, even though it is too unilateral, the United 
States has made a decision. We have to start working and 
imposing a class and doing what we have to do to get this 
crisis concluded. So the United States is in the right place.
    The French have just elected a new president willing to 
work with the United States and who wants to resolve the crisis 
in Darfur. The French have a huge oil investment in Sudan and 
they have the most leverage of any outside power with the 
rebels, because they are the main backer of Chad, where most of 
the rebels are located.
    Third--and everybody has talked about it--China. You have 
the first time this regime has opened itself up, because it has 
a vested interest in presenting a new face to the world in the 
context of the Olympics. It is vulnerable to pressure and it 
wants to end this crisis, simply because it wants it off its 
back. We don't care, frankly, what their motivations are, but 
they have that motivation now.
    We now have the three countries--France, the United States, 
and China--with the most leverage in Sudan, both governments 
and rebels, all three now--as of yesterday, the French just 
named their own special envoy. There are three envoys. The 
Chinese, French, and the United States have special envoys to 
work this issue. Why are we not working together? Why are we 
not hearing that these guys are getting together and they are 
going to start a major diplomatic initiative to get a peace 
deal and to get a protection force into Darfur immediately?
    Historians are going to look back at this perfect 
diplomatic storm and say either one of two things: boy, they 
missed a huge opportunity; or, see, that was the turning point 
and they seized it. All three of these countries have a vested 
interest now. China, France, and the United States have a 
vested interest in peace and stability in Sudan, for whatever 
reason. That is both the south, where most of the oil is, and 
in the west in Darfur, because we still have an unfinished 
agenda in implementing the north/south peace deal.
    So there is a solution, basically is the message. There is 
a solution to the crisis, to the Darfur crisis. For the sake of 
the 2.5 million survivors in Darfur, we must seize this 
opportunity now.
    Thank you.
    [The prepared statement of Mr. Prendergast follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.025
    
    [GRAPHIC] [TIFF OMITTED] T2325.026
    
    [GRAPHIC] [TIFF OMITTED] T2325.027
    
    [GRAPHIC] [TIFF OMITTED] T2325.028
    
    [GRAPHIC] [TIFF OMITTED] T2325.029
    
    [GRAPHIC] [TIFF OMITTED] T2325.030
    
    [GRAPHIC] [TIFF OMITTED] T2325.031
    
    [GRAPHIC] [TIFF OMITTED] T2325.032
    
    Mr. Tierney. Thank you, Mr. Prendergast.
    Ambassador.

                STATEMENT OF LAWRENCE G. ROSSIN

    Mr. Rossin. Thank you, Mr. Chairman, Congressman Shays, 
members of the committee, for inviting me to testify today on 
Darfur, China, the Olympics, and what more U.S. diplomacy is 
needed to end this genocide.
    With your permission, I will submit the full text of the 
statement for the record.
    Let me just say it is a special privilege for me to testify 
today, just after the House passed Resolution 422 calling on 
China to leverage its influence to end the genocide.
    My name is Larry Rossin and I am the senior international 
coordinator for the Save Darfur Coalition. We have over 180 
organizations which together have worked for 3 years now to end 
the genocide. Our Coalition has joined with other organizations 
and concerned citizens in building awareness and determination 
that action should be taken to end the genocide, and the 
presence here today of the founders of Dollars for Darfur, who 
we supported, demonstrates how the tragedy has moved Americans 
of all ages all over our country. Attention given to Darfur in 
the Presidential debates recently indicates how much our 
efforts and those of colleagues like Joey and John and Jill 
Savitt, who will speak after me, has made the genocide a 
political priority in our country.
    The President's decision to tighten sanctions on Sudan's 
regime show that Darfur is accepted as a human rights challenge 
demanding an American response. And we also welcome action 
proposals by the new French leadership, with whom I met last 
week in Paris, demonstrating growing global engagement that we 
worked with foreign partners to foster.
    Sadly, Mr. Chairman, all that work has really made very 
little difference for the people of Darfur. President al-Bashir 
continues his scorched earth campaign against those people with 
complete impunity. That the campaign continues is inarguable. 
Just a week ago 1,500 women and children finished a 125-mile 
trek to the Central African Republic, reporting that they had 
to flee continued bombing of their villages.
    Civil society can educate and agitate, but it is 
governments that have to act. We have seen too many tough words 
but too few tough actions against that regime. There have been 
too many envoys to Khartoum with too little coordination, too 
many threats, too little done to make those threats real.
    The recent Plan B announcement by the administration of 
sanctions against the regime is somewhat encouraging, but it is 
not likely to end the genocide. President al-Bashir and his 
regime long since have figured out how to bleed off these kind 
of modest pressures. They manipulate advocates for more time 
for diplomacy, people like, most recently, the Secretary 
General of the United Nations, so they can continue their 
murder and mayhem.
    Khartoum is only going to end this genocide under serious 
pressure. It clearly wants to keep doing what it is doing, and 
calculates that murder, as John said, costs nothing. Changing 
that calculation requires much tougher measures by every member 
of the international community with influence to wield--the 
United States, that means Europe, it means the Arab League, it 
means Africa, and it also means an awful lot more from China. 
China is an emerging world power, and it has massive economic, 
military, and political relationship with Sudan and with all of 
Africa.
    As you noted, Mr. Chairman, China is Sudan's major 
investor, especially in the oil industry, and its biggest 
export market, and Sudan is one of China's biggest trading 
partners in Africa. Of Sudan's oil revenues, 70 percent, 
according to a former Minister of Finance there, fund its 
military as it wages war against Darfur's people, working 
closely with the janjaweed militia.
    China also provides major aid to Sudan, and when President 
Hu Jintao visited Khartoum in February, China wrote off $80 
million of Sudanese debt and provided an interest-free $13 
million for infrastructure, including a new Presidential 
Palace.
    Military ties are closer than ever, and in April, when 
China's Defense Minister received Sudan's Armed Forces Chief in 
Beijing, he expressed China's willingness ``to further develop 
cooperation between the two militaries in every sphere.'' China 
maintains this military relationship, despite a U.N. arms 
embargo in place since 2005, and the U.N.'s own panel of 
experts have reported that Chinese weapons, aircraft, trucks 
were being used by Sudan's armed forces and the janjaweed to 
keep people in Darfur.
    Beijing defends these sales as legal, but Amnesty 
International has documented convincingly that they violate the 
U.N. embargo.
    Finally, as you have noted, Mr. Chairman, China has been a 
big diplomatic defender of Sudan, watering down one resolution 
after another in the United Nations, most recently the 
resolution that set up the U.N. peacekeeping force.
    This support for the al-Bashir Regime has not gone 
unnoticed among civil society internationally. Under this 
growing scrutiny, the Chinese have tried to portray themselves 
as engaged, quiet diplomacy, public statements, to get Khartoum 
to accept U.N. peacekeepers and to end the genocide in Darfur. 
This began in November 2006, at Addis Ababa negotiations where 
the hybrid peacekeeping force deal was supposedly reached, and 
in February President Hu raised Darfur briefly with President 
al-Bashir in Khartoum. More recently, Chinese diplomatic envoys 
claim to have reinforced that message. China has committed 275 
troops. It has named a special envoy. All these things are 
supposed to be indicating increased engagement, although the 
envoy, when he was in Darfur 2 weeks ago, echoed official 
Sudanese word that all is well and everything is fine in Darfur 
for the displaced.
    On balance, it is our assessment that China's performance 
falls unacceptably short. Whatever quiet influence China may be 
bringing to bear is, at best, ambiguous, undermined by 
simultaneous debt write-offs, new Presidential palaces, growing 
military cooperation, and assertions that everything is hunky-
dory out there in Darfur.
    No wonder al-Bashir told a Middle Eastern wire service, 
after President Hu left Sudan, that he hadn't felt like he was 
under any pressure.
    But we are convinced that China has real influence to 
wield. China claims that it was their Assistant Foreign 
Minister Zhai Jun who, when he visited Khartoum a couple of 
months ago, persuaded Sudan to accept the U.N. heavy support 
package, the phase two of the hybrid force, and we believe 
that. And we would ask, if one mid-ranking Chinese official can 
get Khartoum to reverse 6 months of rejection of that force, 
what more could China achieve if they really leveraged its 
relationships to end the genocide?
    Recently, China has been expressing loud concern at 
agitation by civil society about the Olympics and about its 
negative role. As you noted, the slogan of the Olympics is One 
World and One Dream. Well, I can promise this: there is more of 
that coming. China is extremely well placed to extract 
agreement from Sudan for the peacekeepers and for an inclusive 
peace process and basically to stop killing its own people. 
That has not yet happened, and until it does international 
outrage will mount at China's complicity.
    We, ourselves, have met with the Chinese and told them 
directly that, whether the Olympics-related campaign swells or 
not is entirely in their hands. Civil society pressure will 
sharpen unless China visibly helps to end the genocide. How can 
it be that the Darfur nightmare would not intrude into this 
Beijing dream?
    We have suggested to the Chinese several measures that 
would show real seriousness, including: Acknowledging publicly 
and condemning--which they have never done--the mass killings, 
torture, rape, and displacement in Darfur; affirming, as 
everybody else but them has done, that Sudan's government bears 
overwhelming responsibility for this devastation; warning that 
it won't accept President al-Bashir's continued obstruction of 
U.N. peackeepers and visibly acting to end it; warning also 
that it won't accept Sudanese government obstruction of a 
renewed and inclusive peace process, and visibly acting to end 
that obstruction; signaling that it will support, not abstain 
on, but support a Security Council resolution enacting targeted 
sanctions absent immediate demonstrable Sudanese government 
compliance with international obligations; redirecting that 
money for the new Presidential palace to help the people of 
Darfur; and, suspending military cooperation with Sudan until 
that conflict has ended.
    Mr. Chairman, this list is surely not exhaustive. It is not 
up to us. China will know what more it can do to end this 
genocide. Real Chinese engagement is an extremely valuable 
goal. It is worth great exertion to obtain it, and lives depend 
on that.
    With that said, active Chinese engagement will not prove 
decisive unless integrated in a coherent, muscular, 
international diplomacy that backs united messages to Khartoum 
with pressure measures.
    We share your frustration about poor United States and 
international diplomacy during the last 4 years. Just in the 
last year we have seen four different U.S. Government officials 
be the lead on Darfur. Is it Deputy Secretary Zoellick? Is it 
Deputy Secretary Negroponte? Is it Assistant Secretary Frazer? 
Maybe it is Special Envoy Natsios. We don't know. We can't 
tell. And that U.S. lack of coherence has been reflected 
internationally. Part-time diplomacy of this sort will not 
change Khartoum's cold calculations. The parade of 
uncoordinated envoys to Khartoum really has to end now. The 
last 4 years are a graveyard of the old persuasive diplomacy as 
much as they are of 400,000 Darfurians.
    We, therefore, recommend that this subcommittee exercise 
its oversight responsibility generally to get more U.S. action 
on Darfur--John mentioned many of the ways that can be done--
specifically, by urging the administration to support the 
recent French initiative to convene in a large contact group of 
all the countries with specific influence in Khartoum, 
including China. Only such concerted, structured, global 
diplomacy accompanied by real pressure will change Khartoum's 
calculations.
    Without promoting such structured international 
collaboration, how can our Government really expect to obtain 
mandatory Security Council sanctions? It is a big uphill climb. 
Without structured international collaboration, the President's 
Plan B sanctions will just inscribe themselves on a 4-year-long 
list of showy gestures toward Khartoum taken while villages 
burned, women were raped, people were murdered--that is, while 
Darfur's genocide has proceeded unchecked.
    China can and must do more to end Darfur's agony. So must 
the entire international community, acting together. That is 
another job this administration has to take in hand, and we 
urge your subcommittee to press the administration to do so.
    I look forward to your questions and thank you very much.
    [The prepared statement of Mr. Rossin follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.033
    
    [GRAPHIC] [TIFF OMITTED] T2325.034
    
    [GRAPHIC] [TIFF OMITTED] T2325.035
    
    [GRAPHIC] [TIFF OMITTED] T2325.036
    
    [GRAPHIC] [TIFF OMITTED] T2325.037
    
    Mr. Tierney. Thank you, Ambassador.
    Ms. Savitt, you have been incredibly patient. Being at the 
end is not easy. We respect that.

                    STATEMENT OF JILL SAVITT

    Ms. Savitt. Thank you so much for holding this hearing, 
Chairman Tierney, and for inviting me to participate.
    I want to associate myself with the comments of all of my 
colleagues here on the panel, and I won't go over some of the 
same ground that they have covered.
    We have articulated that Darfur is a huge crisis. Your 
holding this hearing shows that you understand the strategic 
importance that China can play right now in this fortuitous 
moment of having a close strategic and economic partner of the 
Sudanese government being the host of the Olympics.
    So the question today is: what might be done to pressure 
China? What are all the tools at our disposal?
    I want to tell you about a new campaign that is called the 
Olympic Dream for Darfur that has just launched. It is part of 
the broader Darfur advocacy community, and it is one very 
concrete way that we want to use the Olympics as a point of 
leverage to convince China to cause Khartoum to consent to a 
real U.N. protection force and to engage in a peace process.
    What we are doing is launching a symbolic Olympic torch 
relay that will go from Darfur to Beijing. We are starting this 
in August, August 8, which is a year from the opening 
ceremonies of the Olympics, and we are going to go through 
countries historically associated with genocide and mass 
slaughter.
    We are starting in Chad. We have the great Darfur advocate, 
Mia Farrow, and others have been invited, and we welcome anyone 
who would like to join us on this trip. Members of this 
subcommittee, if there is any leg of this relay, it is 
something to train for.
    Mr. Tierney. Maybe I will train with Ms. Loroupe.
    Ms. Savitt. If there is any leg of this trip that you would 
like to join us on, you would be most welcome if it fits your 
schedule.
    We are starting as close to Darfur as we can get, so likely 
in Chad. We are going then to Rwanda, Armenia, Sarajevo. We are 
going to Germany. We are going to Cambodia. And we will likely 
end in Hong Kong. I am not sure the Chinese will welcome us in, 
but we are going to try. And when we are in Hong Kong, we are 
going to talk about the Rape of Nanjing to highlight China's 
own history with the killing of civilians.
    We are also going to hold, with our colleagues here, many 
of whom are in this room, a symbolic torch relay here in the 
United States to show solidarity with that global relay.
    One point I want to mention: it turns out that at the 
Genocide Memorials in a lot of those countries they have an 
eternal flame. So we have now just gotten our torch, and it 
looks very much like the torch that the janjaweed uses to torch 
these villages, as symbolic, and we are going to light that 
torch from those eternal flames, just as a way to show you how 
we want to put pressure on China.
    Our message is: China, please bring the Olympic dream to 
Darfur.
    I want to especially underline the comments of the athletes 
who have spoken and say we do not support a boycott of the 
Olympics. We do believe in this Olympic ideal and the idea that 
we want to live in a world where countries do battle in 
sporting arenas, and where the Olympic games are where 
countries send young men and women to show their patriotism and 
their physical prowess. So that is a very important point.
    So the question then is what can be done. I am hoping that 
if people feel energized and moved by the things they have 
heard today they will join us in our relay. If I may, 
dreamfordarfur.org is how you can get involved. Sorry.
    Mr. Tierney. What was that?
    Ms. Savitt. It is dreamfordarfur.org, thank you. And it is 
F-O-R, not the numeral: dreamfordarfur.org. Thank you.
    There are a couple of things that I do want to make clear 
about what we can all do together. The people we are mobilizing 
on this relay, they are right now writing emails, getting ready 
for rallies, writing letters to the International Olympic 
Committee, to the Olympic corporate sponsors, to the some 200 
national Olympic committees, to the United Nations, which has a 
role to play in international sporting. They are asking all of 
those bodies to intercede with the Olympic host.
    I want to be clear. As Ambassador Rossin said, China has 
taken many steps since we started this effort, since our 
community has been doing divestment and placing ads and making 
ourselves heard. It is, of course, welcome, but not nearly 
sufficient.
    We want to say that there is only one outcome that China 
must secure from Khartoum, and that is adequate and verifiable 
security for civilians in Darfur, not an envoy, not just 275 
engineers, not statements, but adequate and verifiable security 
for those civilians in Darfur. And we would like you to urge, 
if you are able, that if Khartoum doesn't comply with China on 
that, that China then takes action, that it doesn't provide the 
interest-free loan for a new Presidential palace, that it 
doesn't forgive up to $80 million in Sudan's debt, that it 
really has consequences if Sudan does not consent to allowing a 
troop protection force into Darfur.
    We are hoping that we can create some space for 
policymakers to act. If there are ways Members of Congress and 
members of this subcommittee can approach the Olympic sponsors, 
can approach the International Olympic Committee and say that 
they do not want the Olympics tarnished by genocide, that the 
Olympic host cannot be complicit in an ongoing genocide, 
because we are really racing with the clock, as we all well 
know. The survivalist regime in Khartoum is prepared to do all 
that is necessary to ensure the success of its genocidal 
counter-insurgency. And if we don't act now, this robust 
civilian protection force is going to be moot because there 
will be just far, far fewer people in Darfur to protect.
    So, as a body--and thank you for holding this hearing--
please insist that China exert its leadership immediately to 
bring the Olympic dream to Darfur.
    Thank you so much for holding this hearing.
    [The prepared statement of Ms. Savitt follows:]

    [GRAPHIC] [TIFF OMITTED] T2325.038
    
    [GRAPHIC] [TIFF OMITTED] T2325.039
    
    [GRAPHIC] [TIFF OMITTED] T2325.040
    
    [GRAPHIC] [TIFF OMITTED] T2325.041
    
    Mr. Tierney. Thank you very much. We thank all of the 
witnesses.
    Those noises that you heard that so rudely interrupted you 
mean that we have votes. Members up here are very interested in 
asking questions. I don't know what your schedules are, but if 
you can stay, we would like to go vote and come back and maybe 
let you have an early lunch or at least a little respite here 
until about 12:15 or 12:20. Is that good with everybody, or 
will it ruin your day?
    John, it looks like it ruins your day.
    We have two votes. We might be back sooner than that. We 
could be back even before noon. If you want to try that, we can 
do that.
    Is there any Member here that will not be able to return? 
We want to ask a couple quick questions.
    Mr. Shays. I will hold my questions, Mr. Chairman, but I 
will try to meet that schedule.
    Mr. Tierney. Great. All right. Then why don't we come back 
at noon time? We will try to be back here at noon and then we 
will have the questioning and hopefully let you go before very 
long after that.
    Thank you all very, very much.
    [Recess.]
    Mr. Tierney. Well, thank you all for your patience. We 
reconvene the meeting now. I hope you all got a little 
sustenance in the break.
    What we are going to do is probably, instead of taking 5 
minutes each for questioning, maybe open it up to 10 and have a 
round of questioning and then see where we are at that point. I 
don't think there is any need to start slamming the gavel down 
on people if we are really getting some good information.
    I want to take the liberty of starting here, and then we 
will move on from there.
    I want to ask a general question. I suppose that Mr. 
Prendergast and the Ambassador might certainly have a view on 
this, but if anybody else does I would like to hear it, as 
well.
    What are we doing with regard to sponsors of the Olympics? 
We have talked about China and the need to engage and focus 
around their idea of sponsoring this. What about the Coca-
Cola's and the General Electric's and NBC and others who are 
going to profit considerably out of this? Is there a way to get 
them engaged in trying to work the international community, 
trying to pressure the international community to heighten its 
awareness or to start working, say, in a contact group like the 
Ambassador recommended?
    Mr. Rossin. Thank you, Mr. Chairman. I am only going to 
talk about this very briefly. I think actually Jill is the 
person who can best respond to the question that you have 
raised.
    We believe that in the Olympics area, like in the more 
general area of those with influence bringing pressure in order 
to end the genocide, that sponsoring companies for the Olympics 
have a role to play.
    You will recall that a lot of the buzz about the Olympic 
linkage about the genocide Olympics began when Mia Farrow wrote 
her column in the Wall Street Journal that didn't flag China, 
per se. It actually was a column that was directed at Steven 
Spielberg because Steven Spielberg is, in a way, one of the 
corporate sponsors, or he is a communications advisor to the 
Olympics.
    Not only Mia Farrow's column and all the consciousness that 
raised was valuable in and of itself, but it also was valuable 
in two other ways. One is it smoked out the Chinese, in a 
sense. They reacted very, very strongly to the Inspector 
General. I think they drew more attention to the opportunity 
that the Olympics present for bringing pressure on China to use 
its influence with Khartoum to end the genocide.
    I think the second thing was the reaction of Mr. Spielberg, 
himself, who then wrote a letter to President Hu Jintao. I am 
not sure he was that aware of what was going on in Darfur. He 
was quickly educated. He wrote a letter to President Hu Jintao 
and now is engaging very actively and I think will become part 
of this campaign in a way that will make a huge difference. The 
kind of attention celebrity can bring is always very valuable 
in these campaigns.
    I will let Jill talk a little bit, I think, about corporate 
sponsors, because that is part of her effort.
    Ms. Savitt. Yes. Our Olympic Dream for Darfur campaign is 
working with the entire community, and we have colleagues who 
have shown a great deal of success in the divestment community 
helping to craft this strategy aimed at corporate sponsors of 
the Olympics.
    I think our first order of business is to give the 
corporate sponsors the opportunity to do the right thing and to 
educate them about the linkage between China, Darfur, and the 
Olympics, and approach them. So we are approaching them in a 
couple of ways. One is through the socially responsible 
investor community--pension funds and the like--who will go to 
the corporate sponsors and say we are very concerned. The 
corporate social responsibility business community, we are very 
concerned about your association with this. We want to educate 
you, and approach them.
    We are going to approach them directly and ask them to take 
one of two first initiative steps, which is to write a letter 
to the International Olympic Committee and to the president of 
China, and also to make a public statement of concern. Those 
are the first two things that we would like. We think they are 
very modest, and our goal is to get at least one corporate 
sponsor to become a leader, and hopefully then have a domino 
effect with some other corporate sponsors.
    As part of that strategy, I think there is a huge role to 
play for others who can intercede with these corporations and 
sit down with them and educate them about the fact that what 
they are endorsing by sponsoring the Olympics, what they are 
underwriting and whose image they are burnishing as the games 
near.
    Again, if we are not going to boycott, ourselves, we are 
not going to urge other people to boycott or withdraw. In fact, 
once you boycott as a strategic matter you lose your leverage, 
and so as long as the sponsors are donating money and being 
able to intercede with the Chinese government, we want them to 
use that, and even as the Olympics near, ask them for more and 
more things like ceding some of the advertising time to educate 
more people about Darfur and dividing up or giving equal funds 
to the cause of Darfur that they are giving to the Olympics, 
and even underwriting corporate sponsorship will take of our 
Olympic torch relay if they were so inclined.
    Mr. Tierney. Thank you.
    Mr. Hari, there were three names that Mr. Prendergast 
mentioned in his testimony, and I was wondering about your 
opinion of the effectiveness of listing those three individuals 
as people that are targeted for sanctions and possibly targeted 
for information about their activities to be shared with the 
International Court. Would you comment on that?
    Mr. Hari. Yes. I hear this name from Mr. Prendergast, like 
it is not three but there is a lot of people that have 
activities in Khartoum against the Darfurian people. We know 
even Musa Hilar, who for years were leaders. He was civilian. 
Now he is, like, general from the government. They call him 
General Musa Hilar. So there is a lot of people, yes, you know, 
associated with the genocide and terror.
    Mr. Tierney. Is there, to your knowledge, any group of 
people in the political class in Sudan who are likely to be 
sympathetic to doing something positive on this issue that just 
we are not hearing about because they don't have a forum or 
they are afraid to speak out, or do you think it is a pretty 
monolithic group that is intent on just following the lead of 
Mr. al-Bashir?
    Mr. Hari. I didn't hear any one politician of Sudan is 
talking about stop of the genocide in Darfur because the 
regime, they were all following the regime, even the 
parliament, and, you know, how the government control the 
members of someone from the politician of Sudan.
    There is nothing like the leaders that were associated with 
government is very recently, but they have a lot of concern 
about they will not talk. Suppose we need to hear from, like, 
the southern leader to push government, except, you know, the 
U.N. troops in Darfur, but he don't ask the government, he 
don't push government to accept just to keep silent.
    Mr. Tierney. Thank you.
    Mr. Prendergast. May I comment?
    Mr. Tierney. Yes, Mr. Prendergast.
    Mr. Prendergast. Thank you for the opportunity, 
Congressman.
    You know, this regime took power in a military coup in 
1989. They have a very small, small base of support. They 
maintain power by any means necessary. If it takes genocide to 
put down a rebellion in Darfur, they do that. They waged one of 
the most brutal counter-insurgency campaigns the world has ever 
seen in southern Sudan for many years, which we talked about 
earlier, especially the slave raiding and things that went on 
there. And they brutally suppress all rights of political 
opposition.
    So the question is really an interesting one. Would there 
be elements and citizens in Sudan who, if we sided with the 
Sudanese people in a very clear way, what would be the 
reaction. I think it would be very, very positive. I think if 
we were smarter in our public diplomacy and smarter in what we 
do on a day-to-day basis, trying to invest for the long run in 
a relationship with Sudan and the Sudanese people, it would 
make all the difference in the world.
    So picking out and being very clear that it is just a few 
of these individuals who have held on to power using military 
means and using all the kinds of counter-insurgency tactics 
that they have learned from centuries, literally, of history, 
that is the reason they have stayed in power. But there are all 
these aspirations. Sudan had a huge and vibrant political 
culture and civil society culture before these guys came to 
power in 1989 and just crushed it, but it is there. It is still 
there under the radar screen, and the more that we can invest 
in building long-term relationships with the people, I think--
and our humanitarian aid does that, in part. I mean, that is an 
important element to say that we care about the suffering of 
the people, but we could do a lot more with respect to building 
the political and supporting the political and social 
aspirations of the people as much as just their basic human 
needs.
    Mr. Tierney. Having worked in that area with the past 
administration, do you think that we have, on a diplomatic 
side, identified these people and are reaching out through back 
channels or any other method, or do you think we are just 
ignoring that avenue right now?
    Mr. Prendergast. It is funny, because no, not at all. You 
know, in these kinds of situations people like me who are hard-
liners who say, you know, we have to use the tools, the 
punitive measures, people think that then you have cutoff 
communication. I think the opposite. When you ramp up a policy 
of multilateral pressure, you should also ramp up your 
political engagement. We should be engaging not just with the 
government, with all kinds of the political parties that are 
above and underground and all these civil society 
organizations. We should increase our diplomatic presence in 
Khartoum rather substantially, because it is an important 
country, both in the world and in our foreign policy, and we 
have a lot of interest there. We don't have an ambassador. We 
don't have just but a few political officers.
    There is just not enough to do the kind of real engagement 
to demonstrate to people a real public diplomacy strategy, to 
demonstrate to the Sudanese people that it matters to us what 
happens to them and that we want the best for the country, we 
want to support their democratic aspirations, not our vision of 
it, it is their own, and we want to support peace and stability 
in the country in the long term.
    Mr. Tierney. Thank you.
    I will just wrap up my questions with Mr. Cheek and Ms. 
Loroupe. We talked a little bit before the hearing. Can we just 
share on the record what efforts you are making to engage 
athletes in this prospect that you have been talking about here 
this morning?
    Mr. Cheek. Well, again, with the founding of this 
organization that I sort of put forth, this campaign, the goal 
ultimately--and we are sort of in the initial stages. We are 
getting incorporated and nonprofit status, and we have office 
space donated to us. What we hope is that we can organize an 
international campaign.
    Maybe because I am one of the driving forces, obviously it 
is going to be seen a bit as a U.S.-centric thing, but 
ultimately my goal is that it is not primarily U.S. athletes 
but majority athletes representing other nations, because, to a 
certain extent, in some areas anything led by the United States 
will be met with certain suspect, and so I think that having a 
truly multilateral international voice, especially of athletes 
competing in this, it is very easy to say, Joey, you are done, 
you are not competing in these games, you can say whatever you 
want because there is no real consequence to you. It is much 
harder if athletes--and these are friends and new friends that 
I am reaching out to from all over Asia, Europe, and Africa, 
South America--if they are competing and they are saying the 
same thing. It is very difficult to accuse them of taking a 
course that is politically easy, I suppose.
    Mr. Tierney. Ms. Loroupe.
    Ms. Loroupe. I have the same idea also. In Kenya we have 
some peace races that we organize, and we talk about the 
problem in Darfur. That is the only thing that they understand. 
It is difficult to ask someone for spots, television. Next week 
in 2 weeks we will be having our peace race in Uganda whereby 
we also have in Kenya, and we have 6 minutes at the front. I am 
really proud that this is policy, and the representative from 
government in Sudan, the Ambassador talked to me that he's 
there also, Ambassador to Uganda, and that will be in Uganda.
    There are sports in Uganda and education. They will be 
training us. We feel that we are going to start somewhere.
    Mr. Tierney. Thank you.
    Mr. Shays.
    Mr. Shays. Thank you. Again, Mr. Chairman, thank you for 
holding these hearings.
    To our witnesses, each one of you has provided a wonderful 
insight into this issue, and each of you have different 
perspectives, so every one of you was necessary, I think, for 
us to have this kind of meaningful dialog and to learn from 
you.
    I just want to be clear with you, Mr. Cheek, in terms of 
you are not recommending we boycott the Olympics; what you are 
recommending is that we use the Olympics in an effective way 
with American athletes and other athletes around the world 
making sure that we speak out now and during the Olympics about 
this issue. Is that what I am hearing?
    Mr. Cheek. Correct. I am strongly against any kind of 
boycott of the Olympic games.
    Mr. Shays. And, Ms. Savitt, you have taken that same 
position?
    Ms. Savitt. Exactly.
    Mr. Shays. I am just reminded one time when I was really 
angry what happened in the State House of Representatives about 
a process. The entire Republican delegation members walked out, 
and we just watched our other colleagues stay on the house 
floor and continue to debate the bill minus our input. I have 
to tell you it was the stupidest thing we ever did. Well, we 
have done a lot of stupid things, but that ranks as one that I 
haven't forgotten. So I am really grateful that you are saying 
go there, but do not be silent about the issue.
    Wouldn't it be nice if you could go and thank this Chinese 
government for responding before? In other words, let's not 
assume that it is going to, you know, be like this by the time 
of the Olympics. Let's assume that we can all have some impact.
    I want to say to you, Mr. Hari, you are a brave heart. I am 
stunned by the fact that you were willing to go into northern 
Darfur, given all the threats that may have come your way and 
ultimately did by your arrest with Mr. Salopek. I want you to 
know when we met with Mr. Salopek in the prison, he was 
concerned about himself but he was more concerned about you. He 
was more concerned about you. He insisted that you be treated 
better. He insisted that we Americans focus on your plight. He 
was grateful that we were focused on his. I think you know it, 
but I just want to say it for the public record. You have a 
wonderful friend in Mr. Salopek, and you have a lot of friends 
here, and you have a lot of admirers. You are not a difficult 
person to help, because you are a brave heart and you represent 
a lot of other brave hearts.
    I am going to tell all of you that I think that this 
administration gets a bit of a bad rap. I think that we have 
spent a ton of money. We have called this a genocide, where no 
other country is willing to do it. We are constantly being 
criticized by other countries for calling it that. We have a 
special envoy. We had an ambassador, frankly, who dedicates 99 
percent of his time to this effort. And we have American NGO's 
that are getting significant resources to feed individuals who 
now are in these camps.
    I am a former Peace Corps Volunteer. When I went to visit 
one of the camps in northern Darfur, I was struck by the fact 
that there was food and there was education, and I looked at 
some of the villages around these camps and I thought, you 
know, I don't know if I would rather be in the villages around 
the camps or I would rather be in the camps. Now, obviously I 
wasn't in the villages so I can't form a firm opinion.
    What I was struck with was how there has been some real 
effort on the NGO side of the equation, and a lot of people are 
risking their lives because they know if the United States just 
does something that this government doesn't like, their lives 
can be threatened. I did not have one NGO that thought we 
should send military there. They said, you send military there, 
we are dead men walking. Really what they said is we will have 
to leave and we are not sure we will be able to get out safely. 
That was one point that was made, and we traveled together in 
this, so your observations may be slightly different.
    I use this word as infrequently as I can, because I do not 
like to think that I have this mentality, but I am somewhat 
frustrated by people who suggest that we have to get other 
countries to do what we want through negotiations, and when 
they don't do what we think they should it is our fault, 
because it isn't our fault.
    There are a lot of countries here who are doing far less 
and could be doing far more, and they are getting a pass. So I 
know we can't send military troops. I will make this point to 
you and I am just saying this so I can then ask each of you for 
your reaction. When we were talking to the Governor of northern 
Darfur and we were talking about how outrageous it was that you 
had cattlemen killing farmers with weapons and on large animals 
with farmers who had no weapons who were in a very vulnerable 
position. And it was almost like, you know, yes, this is 
happening and it is wrong and so on. And then I said, you know, 
what I think we should do is we should at least begin by having 
a no-fly zone. At that moment the Governor of northern Darfur 
became outraged, incensed, and said, How dare you impugn our 
country? How dare you impose on our sovereignty? Then he was 
outraged. He was outraged about the sovereignty, not outraged 
by the death of his own countrymen, women, and children.
    I thought this is one tough group of people. I say this. 
Now I would like reaction. I would like you to start off, Mr. 
Hari, and we will go right up the line. Actually, I would like 
to go to you and Ms. Loroupe, and then to you, Mr. Prendergast 
and Mr. Rossin, because I have already engaged. React to what I 
have said. Tell me what you would specifically like our country 
to do that we are not doing, and tell me why, if we did it, it 
would make a difference. And if you would like someone else to 
go first, I can do that. Mr. Prendergast, you are the most 
aggressive on this. Let's start out with you.
    Mr. Prendergast. You can count on me for aggressiveness.
    United States is, indeed, doing more than any other country 
in the world, and, indeed, the humanitarian relief effort has 
been nothing short of herculean. What you may not have been 
briefed on fully, because it is the way you do the numbers, is 
we have now over 1 million people in Darfur, according to the 
United Nations, not according to us aggressive activists, that 
are outside of the reach of humanitarian assistance.
    Mr. Shays. You mean they are not in the camps?
    Mr. Prendergast. Many of them are in camps, but because of 
targeted violence and because of bureaucratic restrictions 
imposed by the government of Sudan, both of these two factors, 
people largely in camps--98 percent of those are in camps--are 
not being reached by our humanitarian aid infrastructure. One 
million people.
    So whereas the people that are being served now in very, 
very difficult circumstances, you know, people braving risking 
their lives often to provide that assistance, 90 percent of the 
assistance being provided, of course, by Sudanese, themselves, 
we don't have any idea what is going on in those areas where a 
million people are not being reached. We don't know what their 
mortality rates are. You get the picture.
    So yes, there has been a lot expended, but, wow, we have a 
long way to go.
    Mr. Shays. Fair enough.
    Mr. Prendergast. No. 2, U.S. action has been, by far and 
away, larger than any other country, but, as I said--and I 
think it is a really important point--it has been unilateral. 
We have to work assiduously multilaterally, which is a lot 
harder. I mean, it is just a lot more work right now. We need 
to save our leverage, understandably, for Iraq and Afghanistan 
and North Korea and Iran, and we only have so much.
    So, again, I worked in the last one where we had to do this 
horse trading every day in New York and you make your 
calculations where do we want to expend our energy and where 
are we just going to basically do things for public relations 
purposes, and I fear that Darfur gets, although first-tier 
rhetoric, it kind of falls down into second-tier expenditures.
    Mr. Shays. Let me ask you this question: if we don't have 
success multilaterally, isn't our only other choice to act 
unilaterally?
    Mr. Prendergast. Well, we haven't tried multilaterally. 
That is my point. The point of going from zero to 60 with 
military measures and with unilateral measures when there are 
things that have been proven over time, as we said, the three 
cases, three times we have actually changed government of Sudan 
policy during the last 18 years, when we worked very 
assiduously through the United Nations, both administrations, 
Clinton and----
    Mr. Shays. You say the last 18 years. Some of those things 
you mentioned happened in the last year or two, didn't they?
    Mr. Prendergast. The most important example, indeed, was 
the peace process brokered by the Bush administration, the 
peace agreement between the north and the south.
    Mr. Shays. Well, that was acting multilaterally.
    Mr. Prendergast. Acting multilaterally.
    Mr. Shays. So we have tried. I mean, I am not trying to 
debate you other than to just----
    Mr. Prendergast. No.
    Mr. Shays [continuing]. Make sure the record is clear.
    Mr. Prendergast. But I definitely referred to that in the 
testimony, wrote about it. I think it is the most important 
case study. In other words, we have a model. We just need to 
reintroduce the model.
    Mr. Shays. But I would suggest to you that we are doing 
things that don't show up on people's radar screens 
multilaterally. We are putting incredible pressure on our 
allies in Europe, at the same time we are putting pressure on 
them with Iran, and it is not--in my judgment, I think there 
are things that are happening that nobody is going to give this 
administration credit for.
    Mr. Prendergast. And true of all administrations. We never 
get the credit we need. But there are two things I think that 
need to be visible, and the first one is that we need, through 
the United Nations Security Council, to get a resolution that 
does impose a cost. Let's look at the Genocide Convention. Read 
it upside down, inside out. The only operative phrase in the 
entire convention is that signatory states must do all they can 
to prevent--way too late for that--or to punish the crime of 
genocide. We haven't punished it, and we have to punish it 
multilaterally because the Sudanese discount unilateral action.
    And the second thing we need to do with our special envoy, 
as of yesterday the new French special envoy, and the Chinese 
special envoy, we need to make a visible diplomatic push, the 
three countries that have leverage. That hasn't happened yet. 
It can be in the context of a contact, as the Ambassador said, 
or whatever. We have to be visibly working with them, because I 
believe, as every one of us have said, the Chinese are a big 
question mark. They can be engaged. It is in their national 
security interest to have stability in Sudan, so we actually 
share a common goal. It is not like we are trying to fight them 
to do something they don't want to do; it is just how they do 
it is going to be completely different than how we do it. They 
will never criticize this government in Khartoum. They will 
never say anything that broaches sovereignty. But behind the 
scenes I believe they can be engaged to do a lot more than they 
are doing now.
    Mr. Shays. With the chairman's indulgence, could I go to 
the Ambassador and our two African friends?
    Ambassador.
    Mr. Rossin. Thank you, Congressman Shays.
    Our organization has certainly put a lot of pressure on the 
administration and on President Bush through our advertising 
and through other work that we have done----
    Mr. Shays. And I think that has impact.
    Mr. Rossin. It does have impact in our assessment, as well, 
and thank you very much for affirming that. But I want to 
underscore something: we don't question the President's 
genuine, sincere concern about the situation in Darfur, nor the 
efforts of the will of our Government and our administration to 
try and make a difference and to end the genocide that it, 
itself, as you pointed out, had named in Darfur. But we do have 
a concern, and when we have talked to officials of the 
administration the concern is reinforced. There is a dynamic, 
particularly with there are things like Iraq and Afghanistan, 
North Korea, that are always at the very top level of 
diplomatic attention. They don't need to be pushed. They are 
always out there in the system.
    Things like Darfur, like Kosovo and other Balkans issues in 
the 1990's, like Haiti, tend to have to be pushed, tend to have 
to be pulled by interested officials in the administration to a 
place where they get all of the attention and, in a sense, the 
whole toolbox of----
    Mr. Shays. And what that argues for is that you state the 
case in as extreme a way as you can state it. In other words, 
you shouldn't be the moderating force in the middle; you need 
to be pushing from one end.
    Mr. Rossin. You need to be pushing it. You need to be 
pushing.
    Mr. Shays. I am monopolizing time here. I would love to 
speak to our two witnesses from Africa.
    Mr. Tierney. Ms. Loroupe.
    Mr. Shays. Ms. Loroupe.
    Mr. Tierney. Do you have a comment on that?
    Mr. Shays. I would like to just know what would you like. 
Give me one or two things specifically you would like our 
Government to do. And I am going to qualify it by saying I find 
there is a real concern in Africa that we not act like a 
colonial power and that Europe doesn't act like a colonial 
unit. Been there, done that. So I find that is somewhat of a 
restraint on our even doing some good things. But whichever of 
you would like to jump in first, and if you don't want to 
answer, you don't have to.
    Ms. Loroupe. I think to send the forces over there, Africa, 
and one mention about the fear, people mention about sending 
troops to Darfur. I think the only thing that your government 
can do is to work together with the African Union, not go 
alone.
    Mr. Shays. But, see, I think aren't we willing to almost 
fund all of the African costs, the United States? My 
understanding is if they sent, instead of 7,000, 14,000, the 
United States would help fund most of that cost.
    Mr. Tierney. Are you asking the witness?
    Mr. Shays. I am asking you or the Ambassador.
    Mr. Rossin. Well, we fund currently, sir, the cost for 
infrastructure for the African Union. Of course, the European 
Union funds the salaries and operating costs. I don't know, if 
that force was enlarged if, in fact, we would be willing to do 
it, because the administration has consistently sent inadequate 
funding requests to the Hill. In fact, it has been Members of 
Congress that----
    Mr. Shays. We will leave that on the record.
    Mr. Tierney. Thank you. Mr. Hari, if you have 1 minute, we 
do want to go to other members of the committee. Do you have 
any comment that you want to make on Mr. Shays' remarks?
    Mr. Hari. OK.
    Mr. Tierney. You do?
    Mr. Hari. Yes. You know, I am a Darfurian. Like the other 
Darfurian, I need from United States to push, working with his 
allies to push U.N. Security Council to send more troops to 
Darfur.
    Mr. Shays. Can I just say but the U.N. includes China. That 
is the problem. The Security Council includes China. They are 
part of it.
    Mr. Hari. When the people are working together, they have 
to pressure China to start to make the resolution, because what 
I saw in Darfur now is going now in Chad, like eastern Chad and 
eastern Central Africa right now is going the genocide the same 
Darfur. This is why the genocide started in Africa because the 
community would not care about, they didn't take action in 
Darfur. That is why the government is used as sometimes, you 
know, pressure for the NGO's sometimes.
    But first of all in Darfur they need the secure from United 
States and U.N. Security Council.
    Mr. Shays. Thank you.
    Mr. Tierney. Thank you, Mr. Hari.
    Mr. Higgins, thank you for your patience.
    Mr. Higgins. Thank you, Chairman John Tierney, for holding 
this hearing. I am struck by the conviction and the commitment 
of the panel, because, you know, such an atrocity should 
justify a major response from the world, particularly the 
western world that values the very things that are being 
violated in Darfur in a very fundamental level. But it is the 
non-governmental community, formally or not, that has sustained 
attention and focus on this issue, which is a great tribute to 
all of you.
    I think the good thing for you is that the governments are 
catching up. I think that even Congress in the past 6 months 
has come a long way. Unfortunately, there has been this 
preoccupation with Iraq and Afghanistan and other world 
conflicts. Although different in nature, this is a world 
conflict that obviously requires a response, and a stronger 
response, and at the very lease from the United States.
    I traveled to the Sudan with then chairman, now Ranking 
Member Chris Shays, and we visited Paul Salopek in custody in 
the Sudan, and he, as Chris has said, was most concerned about 
your welfare than his, despite the fact that there was this 
filthy individual being held, but very lucid, and was 
subsequently released, which was a very good thing.
    The other thing that struck me was, going into some of the 
refugee camps and the schools that were being conducted by Save 
the Children, despite all this misery that surrounded them and 
this lack of optimism for a future, there was a presence in 
these kids that conveyed a tremendous sense of optimism and 
appreciation for what they were going through. Despite our long 
trip and seeing some of the horrible things that were going on 
in Darfur, you leave with a sense of optimism because you 
believe that in them is the potential for the triumph of the 
human spirit against extraordinary atrocities.
    A couple of things. You know, when you look at world 
conflict, wherever it exists, there are fundamentals, and this 
one has an economic fundamental. This one has a racial 
fundamental, despite being indistinguishable from color. There 
is an African population and there is an Arab population. The 
misery that has been exacted on the African population is 
beyond human comprehension.
    I think when the new regime, the current regime, took 
control, there was pervasive drought in the Sudan which reduced 
the arable land and thus intensified the competition for the 
land, which I think created a situation which was horrible. But 
the other thing that you realize, since the current regime has 
taken over, the world has changed. I think in many cases the 
discussion here, the theme has been will or lack of will on the 
part of the United States and on the part of the western world 
to do something about this conflict.
    One question I have, John Prendergast, for you and others, 
please, is: is it a lack of will or is it a loss of leverage 
because of the demand for oil and the precious resources that 
the Sudan has an abundance of? Has the United States, which 
previously the Sudan would have a much greater dependence on, 
have we lost leverage because of that?
    Then I have a followup question.
    John, I would like to start with you, and then the other 
panelists, please.
    Mr. Prendergast. Thank you, Congressman.
    I also want to just say one very quick parenthetical to 
your very good explanation of a lot of what has happened, and 
that is that, with respect to Arab and non-Arab peoples in 
Darfur, you know, the government that took power is a very 
small minority regime, and they have used a very small 
percentage of the Arab militia in Darfur, this sort of Darfur's 
version of the KKK, the janjaweed, to undertake most of its 
destruction. The vast majority of Arab people in Sudan are 
horrified by the actions of this small minority of people, so I 
just wanted--you weren't implying otherwise, but I just wanted 
to keep that in there so that we understand this isn't an 
ethnic or tribal or racial issue; it is a power grab, and 
people maintain power.
    On your question about lack of will versus lack of 
leverage, indeed, I think the United States has less leverage. 
No one could argue we have more than we did pre-2003, pre-Iraq, 
and we are constrained dramatically, in fact, multilaterally on 
a number of fronts by what has happened over the last 3 years. 
Nevertheless, when we have demonstrated leadership, 
particularly in the United Nations Security Council globally on 
issues like North Korea, when our policy finally shifted, on 
Iraq, still we still can get countries to go along with us. 
People will go along.
    And I wanted to make a point to Mr. Shays' question or 
point to answer yours. In the last whatever number of years it 
has been since the cold war ended, China, Russia, none of these 
countries have ever vetoed a Security Council resolution 
related to Africa. In other words, if it matters enough to us 
and, in fact, it is in their interests to have a resolution to 
the crisis, they are going to stand publicly and threaten veto, 
they are going to stand publicly and oppose anything that 
violates the sovereignty of another state, because they don't 
want their sovereignty because of what they are doing. So 
however, I think we still have the leverage when we decide to 
press forward with enough political will to move the 
international community sufficiently to do the work.
    The most exciting thing about this issue has been that it 
has been bipartisan. The thing hasn't been attacked by the 
Democrats against the administration or whatever. It has been 
joint. We can do more. Yes, we have lost a little bit, but 
still empirical evidence demonstrates on other issues that when 
we do take that leading role we can actually move a situation 
on the ground fairly substantially.
    Mr. Rossin. Thank you, Congressman.
    I would like to make two comments, as well. One of them was 
your observation, which obviously I would share and our entire 
organization would share, about the heroism of the humanitarian 
workers in Darfur who work under really incomparable threats 
and harassment from the Sudanese government. The things they 
describe, they have never encountered in other situations.
    I think that underscores something about that heroism, 
about that bright light of the human spirit which you described 
which can give rise to optimism, and that is that all of that 
exists at the sufferance of the Sudanese government. They could 
be deciding even now while we are sitting here, they could be 
deciding to kick all of those aid workers out, to do anything 
they want, because there is absolutely no international 
leverage on the ground in Darfur to control in any way what 
they do. The U.N. has been warning that could happen. The 
private NGO's have been warning that could happen. That is why 
we think we need to move beyond this kind of a situation to 
where we can actually get some grip on the situation in Darfur 
so that the people that are living there in these camps and the 
humanitarian workers, themselves, are not at the mercy of this 
government which has no good intentions in its heart.
    With regard to the leverage issue that you mentioned, I 
would certainly agree with John and I think with the 
implication of your question, as well, which is that our 
leverage is diminished compared perhaps to some other times, 
and there is a lack of competition for administration 
attention.
    I think the concern that we have is the leverage and the 
tools that we do have are not adequately mobilized, in fact. I 
worked on the Balkans for a number of years as a State 
Department officer before I retired at the end of the last 
decade beginning of this, and the kind of international, 
consistent, concentrated, going across the Atlantic every week 
going to these places that we used to do on Kosovo and on 
Bosnia, I travel a lot in Europe for our organization and meet 
with government officials and I see no evidence of that taking 
place with regard to Darfur. Oftentimes I am the first person 
that has come into their office to talk about Darfur. I don't 
know if it is maybe embassy officers delivering xeroxed 
demarges, as we used to do when I worked for the State 
Department, but there is not that kind of intensive engagement.
    The Darfur Peace and Accountability Act last year mandated 
the President do certain things and authorized him to do a 
number of other things such as barring the entry into U.S. 
ports of ships that have carried Sudanese oil. We don't 
understand why, in a sense, the book isn't being thrown at 
President Bashir, why dribble out a few sanctions now with Plan 
B and maybe who knows when down the road you dribble out more. 
There is just nothing in the behavior of the government of 
Sudan or the diplomatic process that has been going on to 
justify really not throwing the book, not imposing all the 
sanctions that are available now.
    I think the other thing that I would say is that even the 
things that have been done maybe have not been adequately 
implemented, and I think, with regard to the new sanctions that 
were announced by the President, it is important for this 
committee and for the Congress, as a whole, to monitor and to 
exercise oversight to make sure those things are actually done. 
They need more enforcement mechanisms. They need more resources 
in Treasury, at the agency, and in April, when Andrew Natsios 
testified before a Senate committee, he said part of Plan B 
would be setting up the enforcement mechanisms not only for the 
new sanctions but actually for the existing sanctions, i.e., 
what have we been doing with those existing sanctions over the 
last period?
    So I think this is the area where our concern is great and 
where there doesn't seem to be a positive evolution nearly fast 
enough to match the scale even of the deterioration in Darfur.
    Thank you.
    Mr. Tierney. Thank you.
    Mr. Higgins. Just one more question. Again, we talked about 
the United Nations, you know, does not move itself; it has to 
be moved by the influence. I think the irony is that after 
World War II the United States had the world at its feet, and 
established international organizations, including the United 
Nations and the United Nations Security Council, and as a 
demonstration not only of military might and economic 
superiority, the United States demonstrated generous spirit by 
including China in the United Nations Security Council, and 
perhaps China should be reminded of that.
    But just on the issue of who is in control there, al-
Bashir, is he a figurehead? John, you had mentioned in your 
earlier comments that, you know, there are three individuals 
that you want to apply pressure to in Darfur, and I think it 
was the assistant president, the director of intelligence, and 
the minister of defense. Why? Is al-Bashir more a figurehead, 
or is it a loose coalition that requires all of these 
individuals? I am not quite sure. Just elaborate, if you will.
    Mr. Prendergast. The government of Sudan, like many 
dictatorships, are a collective decisionmaking body, but there 
are people in that collective who wield disproportionate 
influence. In my view, particularly the first two, Nafie Ali 
Nafie, the Assistant to the President, and the Chief of 
Security, overall security, Salah Abdallah Gosh, these are the 
two people who consistently have been the leading, sort of the 
pointy end of the spear on military strategy that the 
government of Sudan has pursued since it came to power, first 
against southern Sudanese and now against Darfurians that have 
caused, by far and away, more destruction than anywhere else on 
the planet during the last 15 years besides the Congo.
    I mean, I just believe we ought to go right at the source 
of those and place the scarlet letter. We are not arresting 
them and sentencing them. We are not sending a military force 
to annihilate these guys, but just put the scarlet letter on 
the shirt, because in the past when we have done these kinds of 
things, when we have spotlighted particular elements of the 
regime or done that, it actually has affected their 
calculations.
    This isn't the Taliban. Bashir and company aren't Saddam 
Hussein ready to go down with the ship. They want to play ball 
internationally. They want to get involved in the world. They 
wanted to be in the Security Council. They made a very big 
pitch in 2000 to try and become a member of the Security 
Council, and the United States blocked their ascension to it 
and put Mauritius, just as a nice footnote, as the aspiring 
Security Council country.
    So I think there is a lot we can do by using the tools that 
we have, as Ambassador Rossin said, before we have to escalate 
to other, more dramatic measures.
    Conventional diplomatic, economic, and political measures 
working multilaterally, aggressive diplomatic engagement, and 
multilateral punitive measures have gained traction in the past 
and I think we just need to do it. We just need to decide we 
are going to have to break a little China, literally and 
figuratively, to move this process forward and to get consensus 
around a particular plan that would bring a peace process that 
could bring peace to Sudan and to get the U.N./A.U. hybrid 
force that the world has basically agreed upon to be actually 
be deployed over the objections of the Sudanese government in 
Darfur to protect civilian populations.
    Mr. Higgins. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    I want to thank every single one of our panelists here 
today. Thank you very much for your contributions. They are 
valuable to us. We will be following up on this and we will be 
working in concert to take some action on that. We wish you all 
good luck and good fortune with what you have done, and we are 
particularly grateful also for the testimony of the first panel 
today. I think we were all impressed by that.
    So thank you very, very much.
    With that, there being no other questions, this hearing is 
adjourned. Thank you.
    [Whereupon, at 12:57 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
